<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: IMPLEMENTATION OF THE WATER RESOURCES REFORM AND DEVELOPMENT ACT OF 2014 AND THE WATER RESOURCES DEVELOPMENT ACT OF 2016</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: IMPLEMENTATION OF 
 THE WATER RESOURCES REFORM AND DEVELOPMENT ACT OF 2014 AND THE WATER 
                   RESOURCES DEVELOPMENT ACT OF 2016

=======================================================================

                                (115-22)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                      COMMITTEE ON TRANSPORTATION
                           AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-375 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  

            Subcommittee on Water Resources and Environment

                   GARRET GRAVES, Louisiana, Chairman

ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      LOIS FRANKEL, Florida
DANIEL WEBSTER, Florida              FREDERICA S. WILSON, Florida
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
MARK SANFORD, South Carolina         EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut
DAVID ROUZER, North Carolina         CHERI BUSTOS, ILLINOIS
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           BRENDA L. LAWRENCE, Michigan
DOUG LaMALFA, California             PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
BRIAN J. MAST, Florida, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)






























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Douglas W. Lamont, P.E., Senior Official performing the duties of 
  the Assistant Secretary of the Army (Civil Works), Office of 
  the Assistant Secretary of the Army (Civil Works)..............     5
Lieutenant General Todd T. Semonite, Commanding General and Chief 
  of Engineers, U.S. Army Corps of Engineers, accompanied by 
  Major General Donald E. Jackson, Deputy Commanding General for 
  Civil and Emergency Operations, U.S. Army Corps of Engineers...     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Grace F. Napolitano of California...........................    52

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Douglas W. Lamont, P.E...........................................    53
Lieutenant General Todd T. Semonite..............................    56

                       SUBMISSIONS FOR THE RECORD

Douglas W. Lamont, P.E., Senior Official performing the duties of 
  the Assistant Secretary of the Army (Civil Works), Office of 
  the Assistant Secretary of the Army (Civil Works) and 
  Lieutenant General Todd T. Semonite, Commanding General and 
  Chief of Engineers, U.S. Army Corps of Engineers, accompanied 
  by Major General Donald E. Jackson, Deputy Commanding General 
  for Civil and Emergency Operations, U.S. Army Corps of 
  Engineers, joint response to questions for the record issued by 
  the following Representatives:

        Hon. Garret Graves of Louisiana..........................    61
        Hon. Rodney Davis of Illinois............................    66
        Hon. David Rouzer of North Carolina......................    68
        Hon. Blake Farenthold of Texas...........................    71
        Hon. Peter A. DeFazio of Oregon..........................    72
        Hon. Grace F. Napolitano of California...................    73
        Hon. Frederica S. Wilson of Florida......................    74
        Hon. Jared Huffman of California.........................    76
        Hon. Eddie Bernice Johnson of Texas......................    78
        Hon. John Garamendi of California........................    81
        Hon. Elizabeth H. Esty of Connecticut....................    82
        Hon. Cheri Bustos of Illinois............................    83
        Hon. Brenda L. Lawrence of Michigan......................    85
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, submission of written statement of the American 
  Chemistry Council..............................................    87

                        ADDITIONS TO THE RECORD

Written statement of Melanie Bahnke, President, Kawerak, Inc.....    90
Written statement of Tim Gilbert, President, Manilaq Association.    94



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: IMPLEMENTATION OF 
 THE WATER RESOURCES REFORM AND DEVELOPMENT ACT OF 2014 AND THE WATER 
                   RESOURCES DEVELOPMENT ACT OF 2016

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
room 2167 Rayburn House Office Building, Hon. Garret Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Louisiana. The subcommittee will come to 
order.
    Good morning, and thank you all for being here. I would 
like to welcome everyone to our hearing today on ``Building a 
21st-Century Infrastructure for America: Implementation of the 
Water Resources Reform and Development Act of 2014 and the 
Water Resources Development Act of 2016'' as encompassed in the 
WIIN Act [Water Infrastructure Improvements for the Nation 
Act].
    The real purpose of this hearing is to look at 21st-century 
infrastructure and what that looks like, what a 21st-century 
infrastructure water resources mission looks like.
    I think when you look at the mission of the U.S. Army Corps 
of Engineers, considering the fact that their mission is 
critical to the maintenance of our navigation channels, the 
facilitation of literally hundreds of billions of dollars in 
maritime commerce on an annual basis, the protection and 
resiliency of our communities, the protection and resiliency 
and continued ecological productivity of our environment, the 
mission of the Corps of Engineers is an absolutely critical 
mission.
    Three years ago, the Water Resources Reform and Development 
Act reformed bureaucracy and it increased congressional 
oversight in prioritizing future investment in water resource 
projects.
    Then, last December, Congress got back on a 2-year cycle 
for water resources bills with the enactment of the 2016 bill--
it was included in the Water Infrastructure Improvements for 
the Nation Act which built on reforms from 2014 to further 
increase flexibility and remove barriers for State, local, and 
non-Federal interests to invest in infrastructure. And it also 
helped to strengthen our water infrastructure through 
activities of the Corps of Engineers to maintain 
competitiveness, create jobs, and grow the economy.
    Congress now has two transformative WRDA bills in the last 
two Congresses. And both, while I understand are complex, both 
still have a significant way to go in terms of implementation, 
which is a concern. For example, in the 3 years since the 2014 
bill, about 10 percent of the provisions don't have 
implementation guidance. And many of these provisions are 
pretty critical. They are significant provisions that 
accelerate project reforms and provisions that provide 
flexibility through what is largely reviewed as being too rigid 
of a process. Again, no implementation guidance.
    Provisions relating to reforms to the Inland Waterways 
Trust Fund and the Harbor Maintenance Trust Fund have not 
received implementation, written implementation guidance. 
Additionally, many of these reform provisions require issuance 
of reports on the progress of efficacy of their implementation, 
and many of these reports have not been sent to the committee.
    While the 2016 bill was passed just last year, only about 
30 percent of the provisions from that legislation have been 
implemented and it really complicated our ability to do a 2016 
bill because many of the implementation guidance had not been 
issued from the 2014 bill, which made it difficult for us to 
understand what types of tweaks were needed to the law to 
further improve flexibility, efficiency, and some of the 
reforms that Congress has been pushing for many years.
    Additionally, new programs of significant interest from 
non-Federal parties, such as the beneficial use of dredged 
material pilot program, have not been fully implemented. We 
hope more of a priority will be placed on writing 
implementation guidance, particularly for some of these 
transformative provisions that I think are collectively in the 
Federal and non-Federal interest.
    I would like to welcome General Semonite and Mr. Lamont, 
who are testifying before this committee for the first time. I 
would also like to recognize General Jackson, who is 
accompanying General Semonite to complement some of the 
responses to questions.
    I look forward to continuing to work with the Corps to 
ensure that WRRDA 2014 and WRDA 2016 provisions are carried out 
in a fashion that is consistent with congressional intent and 
that benefits the Nation.
    I just want to in closing quickly urge that many of these 
provisions in law the Corps of Engineers is in many cases given 
regulatory authority and authority to hold citizens accountable 
in some cases. And I think that it becomes a somewhat difficult 
scenario when the Corps itself is not following laws, complying 
with deadlines, yet trying to hold our citizens accountable for 
laws that are perhaps in the next section of that same act.
    I am going to say it again: Your mission is absolutely 
critical to this Nation. And you are a military organization. 
Generals, if your men and women were out there in the 
battlefield, and if you were dealing with a situation that 
simply wasn't working, if the practices, the programs weren't 
working, and your men and women were vulnerable and perhaps 
losing life as a result of that, I am certain that you would be 
making changes in an urgent manner to make sure that you are 
responding to the conditions on the ground.
    In some cases your mission is comparable in terms of the 
urgency. Lives have been lost in my home State. Lives are going 
to continue to be lost around the Nation because of the 
inability to complete projects.
    Now, I will be clear, I think Congress is culpable in some 
case. But the bottom line is the mission is critical and we 
need to be working together to finish these projects.
    So thank you very much.
    With that, I now recognize--look at that guy, you never 
know who you are going to see in this chair--I now recognize 
the ranking member, I guess, for today's hearing, Mr. Lowenthal 
from California, for any remarks he may have.
    Dr. Lowenthal. Thank you, Mr. Chairman. And thank you for 
holding today's hearing.
    And I want to welcome all the witnesses that are here today 
from the Department of the Army and the Corps of Engineers for 
coming today.
    Over the years, the Corps has distinguished itself for 
addressing many of the Nation's water-related challenges, 
constructing and maintaining navigation corridors along our 
coastlines and our inland waterways, to providing critical 
flood risk reduction to communities both large and small, to 
restoring many of our Nation's treasured natural resources. The 
Corps has earned its reputation as the premier water resources 
agency to the Federal Government.
    Yet, in recent years, we have seen this role diminish as 
the Federal assistance to the Corps has waned. Where once the 
Corps' ability to help communities was limited only by its 
creativity in solving complex water resources challenges, today 
the Corps' presence is significantly limited due to a lack of 
available resources. Fairly or unfairly, today's Corps is often 
criticized as being slow and expensive.
    However, as I pointed out, a significant amount of the 
blame for these criticisms, while some on the Corps, much of it 
falls squarely at the feet of the administration and the 
Congress for failing to provide you with the resources 
necessary to help our communities to address their local water 
resources challenges.
    For example, year after year Presidential budgets for the 
Corps have been reduced to a point where the Corps cannot 
efficiently fund critical projects and studies to completion. 
As a former Chief of Engineers, Robert Flowers, once candidly 
admitted, when the Corps is not provided efficient and regular 
funding for Corps studies and projects, projects cost more to 
complete and take longer for their benefits to be realized.
    I am not sure how the President expected Congress to react 
to his Presidential budget request for the Corps for fiscal 
year 2018. This was from a Presidential candidate that 
campaigned on the promise of reinvesting in our Nation's 
infrastructure. This fiscal 2018 request fails miserably. At 
best, it is flat funding for the Corps, but flat funding of an 
agency that already suffers from delays and uncertainty due to 
a lack of available resources.
    For the Corps, less funding means fewer projects are 
constructed and fewer communities can benefit from the Corps' 
expertise. For those projects that are constructed, less 
funding means deferred critical maintenance and projects must 
constantly be operated below optimal levels of efficiency.
    Lack of available funding also means that for many 
communities they must pay more or advance their own funding to 
the Corps in order to move projects forward. And I know that, 
for example, from my own community that has done that.
    That is not a sustainable path for addressing our ongoing 
water resources challenge. We need to do better.
    First, we need simply to invest more in our domestic 
infrastructure spending. I suspect if there is not going to be 
leadership from the President on real Federal infrastructure 
investment, I hope it will be up to the Congress to move 
forward on real proposals to move this country forward to 
rebuild our crumbling infrastructure and to put Americans back 
to work.
    Also, we need to have a realistic conversation on how to 
address the backlog of unconstructed projects and deferred 
maintenance of water resources projects facing our Nation. This 
is a ticking time bomb facing our critical infrastructure and 
our desire to maintain a highly efficient, protective, and 
resilient water infrastructure for the next century.
    We also have to ensure that our Federal resources agencies 
are provided necessary funding to meet their statutory 
obligations in a timely manner. As the ranking member of this 
committee, Mr. DeFazio, has stated, we cannot streamline our 
way out of our funding shortfall.
    I applaud your comments, General Semonite, when you 
recognized that underfunding your partner agencies only slows 
down your work when permit reviews go unfunded.
    Lastly, I would like to express my disappointment with the 
Trump administration's efforts to undo the Obama 
administration's Clean Water Rule. These efforts weaken 
protection of our Nation's rivers, streams, and lakes, place at 
risk the drinking water supply of over 117 million Americans, 
and reinstate the regulations that caused the confusion 
surrounding the scope of the Clean Water Act that existed for 
close to a decade.
    For years, the regulations that this rulemaking would rush 
to reinstate were uniformly criticized by farmers, industry, 
and the construction community as arbitrary, as confusing, and 
as frustrating. I cannot comprehend how putting these 
regulations back into effect will remove uncertainty.
    The action also rejects almost a decade of scientific 
evidence on the importance of rivers, streams, and lakes to 
human health and the health of the environment, while 
jeopardizing the drinking water of one in three Americans.
    In short, these actions leave us with less protection, more 
confusion, and increased costs for all.
    Thank you, Mr. Chairman, for holding today's hearing, and I 
yield back.
    Mr. Graves of Louisiana. I want to thank the gentleman for 
his comments, and I want to remind him that I think we share 
frustration with the inability to get these projects 
implemented.
    Dr. Lowenthal. Absolutely.
    Mr. Graves of Louisiana. Because the mission is absolutely 
critical.
    Dr. Lowenthal. Absolutely.
    Mr. Graves of Louisiana. And that is a bipartisan goal. 
Looking back at the Obama budget, 32 percent reduction in 
fiscal year 2015, 29 percent reduction in fiscal year 2016, 41 
percent reduction in fiscal year 2017.
    Dr. Lowenthal. Absolutely.
    Mr. Graves of Louisiana. And bipartisan problem. We are 
committed, together with you, Mrs. Napolitano, and Mr. DeFazio 
to continue working together to fix this.
    Dr. Lowenthal. Thank you.
    Mr. Graves of Louisiana. Thank you.
    Before I begin introducing our witnesses this morning, 
allow me to submit some unanimous consent requests. I ask 
unanimous consent that written testimony submitted on behalf of 
the following be included in the hearing's record from American 
Chemistry Council. Is there objection?
    Without objection, so ordered.

    [The written testimony from the American Chemistry Council is on 
pages 87-89.]

    Mr. Graves of Louisiana. I ask unanimous consent the record 
remain open for 15 days for additional comments and information 
submitted by Members or witnesses be included in the record of 
today's hearing.
    Without objection.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses provide answers to 
any questions that may be submitted to them in writing.
    Without objection, it is so ordered.
    Thank you.
    Our first witness is Mr. Doug Lamont, senior official 
performing the duties of the Assistant Secretary of the Army 
for Civil Works.
    Mr. Lamont, you are recognized for 5 minutes.

     TESTIMONY OF DOUGLAS W. LAMONT, P.E., SENIOR OFFICIAL 
 PERFORMING THE DUTIES OF THE ASSISTANT SECRETARY OF THE ARMY 
 (CIVIL WORKS), OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 
    (CIVIL WORKS); AND LIEUTENANT GENERAL TODD T. SEMONITE, 
 COMMANDING GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF 
  ENGINEERS, ACCOMPANIED BY MAJOR GENERAL DONALD E. JACKSON, 
 DEPUTY COMMANDING GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, 
                  U.S. ARMY CORPS OF ENGINEERS

    Mr. Lamont. Good morning, Chairman Graves and distinguished 
members of the subcommittee. I am honored to be here today. I 
am Doug Lamont, senior official representing the Office of the 
Assistant Secretary of the Army for Civil Works.
    Mr. Graves of Louisiana. Mr. Lamont, would you mind pulling 
the mic a little closer?
    Dr. Lowenthal. And make sure it is on.
    Mr. Lamont. OK. Can you hear me now?
    Thank you again for the invitation to come before you to 
testify today on the Water Resources Reform and Development Act 
of 2014 and the Water Resources Development Act of 2016. 
Through its Civil Works program, the U.S. Army Corps of 
Engineers supports the shipment of goods through our Nation's 
coastal ports and on the inland waterways, helps communities to 
reduce their flood and coastal storm risks, restores several 
significant aquatic ecosystems endeavors, provides drinking 
water, generates renewable electricity, and offers water-based 
recreation opportunities to the public.
    For over a century, Federal, State, local, and Tribal 
governments have made large investments in our water resources, 
including the construction of locks and dams and deeper and 
wider coastal navigation channels to support commercial 
navigation, and by building levees, reservoirs, and other 
features to reduce flood risks.
    In the 21st century we must continue to look at the best 
ways to maintain the key features of this infrastructure, 
reliably and safely, in a manner that is responsible, economic, 
and sustainable.
    The administration recognizes the need to invest in our 
Nation's infrastructure for America, including its water 
resources infrastructure. The 2018 Civil Works budget supports 
this effort by providing $5.002 billion in gross discretionary 
appropriations for the U.S. Army Corps of Engineers Civil Works 
program, focusing on investments that will yield high economic 
and environmental returns or address significant risk to public 
safety.
    The budget focuses on our three major mission areas: 
allocating 42 percent of the budget to commercial navigation, 
27 percent to flood damage reduction, and 7 percent to aquatic 
ecosystem restoration. Other areas of significant funding in 
the budget include our hydropower program, the cleanup of sites 
contaminated during the early years of the Nation's nuclear 
weapons program, and our regulatory program.
    The Army has addressed a significant number of the 206 WRDA 
2016 provisions, and we are focused on completing the 
implementation guidance as quickly as possible.
    The Water Resources Development Act of 2016 authorized the 
construction, through your good work, of 30 water resources 
development projects at a cost of $15.6 billion. Some of the 
projects authorized included the $743 million West Shore Lake 
Pontchartrain Project, the $1.98 billion Central Everglades 
Project, the Port Everglades Project at $337 million, and the 
$502 million Charleston Harbor Project and the Upper Ohio River 
Navigation Project at $2.69 billion.
    Implementation guidance for all 30 authorized projects has 
been completed and published on the Corps website.
    Implementation guidance for sections 1126 and 1127 has been 
completed. These provisions address studies and construction 
efforts that can be completed by non-Federal interests. 
Additionally, implementation guidance for the use of reservoir 
sediment, drought contingencies, land conveyance and Tribal 
consultations, and ice jam prevention has been completed.
    We have completed most of the 2014 implementation guidance 
and are working to finalize all remaining required guidance as 
soon as possible. In the year since the last hearing before 
this subcommittee, we have finalized guidance for emergency 
communication of risks, levee certifications, use of innovative 
material, cooperative agreements with Tribes, and many other 
provisions.
    The Army submitted the 2017 report to Congress on future 
water resources development in March of this year in response 
to section 7001 of WRRDA 2014, including an accounting of Post-
Authorization Change Reports.
    The process for developing this report includes a Federal 
Register notice, requesting proposals from non-Federal 
interests for proposed feasibility studies and modifications to 
authorize water resources development projects.
    A total of 53 proposals were received this year. Of these 
proposals, 13 met the criteria and are listed in the annual 
report table. The 40 proposals that did not meet the criteria 
are included in the appendix.
    The two primary reasons they are in the appendix are that 
either the proposal did not fit within our identified Corps of 
Engineers core mission areas or authority already exists to 
perform the requested work.
    Where authority already exists, inclusion in the appendix 
of 2017 annual report does not preclude the Army from carrying 
out either a study or construction.
    Mr. Chairman, I look forward to working with you and 
appreciate the committee's support for the Nation's water 
resources infrastructure. Mr. Chairman, this concludes my oral 
statement. Thank you, very much.
    Mr. Graves of Louisiana. Thank you, Mr. Lamont.
    We are now going to turn to the commanding general and the 
Chief of Engineers for the United States Army Corps of 
Engineers, General Semonite.
    General, I just want to quickly say I do appreciate the 
time that we have had to spend together and talk about a 
different Corps of Engineers, a different project development 
delivery process moving forward, and looking forward to many 
more conversations and true change moving forward.
    The gentleman is recognized for 5 minutes.
    General Semonite. Chairman Graves and distinguished members 
of the committee, I am Lieutenant General Todd Semonite, 
commanding general of the U.S. Army Corps of Engineers and the 
54th Chief of Engineers.
    I am honored to be here today, accompanied by Mr. Lamont 
and Major General Ed Jackson, to provide testimony on the 
recent Water Resources Development Acts, as well as key issues.
    I have been in command for the Corps for just over 1 year 
now and I continue to be amazed by the breadth and complexity 
of the Civil Works program, as well as the expertise and 
dedication of the professionals that work in our organization.
    While this is my first time appearing before the committee, 
I have had the opportunity to work with a number of you 
individually, and I look forward to continuing to build our 
relationship during my tenure as Chief of Engineers.
    It is my belief that the credibility of the Corps is 
measured in our ability to deliver results that are on time, on 
budget, and of exceptional quality. To do this and to maintain 
our status as a world-class organization now and into the 
future, we are focusing on three fundamentals we call 
Strengthen the Foundation, Deliver the Program, and Achieve Our 
Vision. And I want to give you some highlights of those 
fundamentals.
    First, as with any structure, our foundation must be our 
strength, the bedrock upon which our presence rests and our 
future is built. For the Corps this means having the discipline 
to accomplish routine tasks to a high standard. It means 
demonstrating that we are reliable and competent partners, 
assisting in shared efforts to be responsible stewards of the 
Nation's water resources.
    We are committed to transform our processes, invest in the 
technical competency of our most valued asset, our people, and 
to be collaborative and transparent. Our strength is validated 
by earning trust in all we do by demonstrating technical 
expertise, competence, and professionalism across our 
organization.
    We earn our credibility, our reputation, and our values by 
delivering the program. This is our lifeblood, this is our 
passion, this is our mission. And this is my number one 
priority. In all that we do, we strive to ensure that cost, 
timeliness, and expected quality are understood upfront and 
successfully accomplished in the end.
    In order to achieve our vision, we endeavor to anticipate 
the conditions, the challenges, the opportunities in an 
uncertain future by taking prudent, logical, and decisive steps 
today to prepare. We are doing this by implementing strategic 
transformation within the Corps, continually pursuing four 
goals outlined in our campaign plan with an aim point of 2035.
    Our first campaign goal is to continue to work across the 
globe with a presence in more than 110 countries supporting 
national security and our combatant commanders in civil works, 
military missions, and water resource development expertise. We 
are proud to serve this great Nation and our fellow citizens, 
and we are proud of the work the Corps does to support 
America's foreign policy.
    Our second goal is to continue to make the Corps more 
efficient and effective while delivering integrated water 
resource solutions for national missions and to address 
infrastructure challenges. This involves modernizing the 
project planning process and enhancing budget development for a 
more holistic outcome by making better risk-informed investment 
decisions and improving delivery methodology.
    Our third major goal is to continue to be proactive in 
reducing disaster risk and responding to disasters under 
national response and recovery support frameworks, as well as 
within our authorities for flood risk management. I am very 
proud of our team for the work we do with FEMA and our other 
Federal partners as well our State and local agencies in this 
area.
    Our fourth and final goal is preparing for tomorrow, which 
focuses on ensuring we have a pipeline of the best engineering 
and technical expertise, as well as a strong workforce 
development and talent management program. We continue to 
tailor developmental programs to employ aspirations to retain 
talent and instill a culture that embraces a career of service.
    In closing, I would offer that our excellence demands 
commitment of every Corps employee. As Chief of Engineers, I am 
striving to what General Shinseki, the former Army Chief of 
Staff, called irreversible momentum towards being a world-class 
organization.
    World-class means that for the Corps to continue 
engineering solutions for the Nation's toughest challenges, 
which is our vision, we must all be leaders of technical 
competence and superior integrity. You have my commitment that 
the teammates of the Corps have a passion to achieve that 
vision.
    Thank you for allowing me the time to address the committee 
today.
    Mr. Graves of Louisiana. Thank you, General.
    I am now going to recognize the gentleman from Florida, Mr. 
Webster, for 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    And, General Semonite, thank you for your service to our 
country. And I know you know a lot about Florida, and that is 
good, our 15 seaports and also a national treasure, which is 
the Everglades, Florida Everglades.
    So my question is, is there a day, a starting date where we 
will be in earnest on the Central Everglades Planning Project?
    General Semonite. Sir, the CEPP has unbelievable potential. 
I was the division commander in Atlanta for 3 years, from 2009 
to 2012. General Jackson backfilled me. We looked at the 
Central Everglades Planning Project, and that particular 
project, as probably being one of the most important things to 
continue to keep water flowing south. We have had significant 
challenges over the architecture of the old CERP [Comprehensive 
Everglades Restoration Plan] and a lot of water has gone east 
and west, but we are fully committed to continue to keep that 
going.
    What I would like to do is ask General Jackson to give you 
a quick update of exactly where we are. You have our commitment 
that this is where we see probably the most potential in 
solving not just some of the ecosystem issues down there, but 
other issues that are related back to the Florida system.
    Ed.
    General Jackson. Thank you, sir.
    Congressman Webster, thank you very much for that question.
    I was very involved in pushing the Central Everglades 
Planning Project through to achieve support, so I am very 
familiar with it. As you know, most of the things on the 
integrated delivery schedule in south Florida are on a 
sequence, and this one is no different.
    One of the things that we are working our way through right 
now is the need to do the validation studies for the different 
components of CEPP that have to be done, but also there are a 
couple of other things that have to done in advance of that.
    There are a couple of other projects that construction must 
be completed on, and those include Modified Waters, the C-111 
South Dade, Broward County, and the C-111 Impoundment.
    So we are trying to focus our effort and priorities on 
getting those projects done and completed so that we can move 
forward as fast as possible on the Central Everglades Project.
    There are also a couple of other issues on the restoration 
strategies that we are working with the non-Federal sponsor 
very closely to get constructed, so we can get all the 
preparatory work needed that has to be done to set the 
conditions for CEPP to be successful. So we are committed to 
moving forward along those timelines.
    We had in the President's budget for this year $400,000 to 
apply against Central Everglades. We are going to use that to 
continue to set conditions so that when we can get these other 
projects completed we can move forward without any further 
hesitation to start implementing the requirements of Central 
Everglades.
    Mr. Webster. Is there a date, a start date?
    General Jackson. I don't have a start date with me, sir, 
but I will get that back to the staff. I know it is on an 
integrated delivery schedule sequence chart that I have back in 
the office, and I can get you that when I get back.
    Mr. Webster. Is the $200 million that was recently passed 
by the Florida Legislature, does that help? What does that do?
    General Jackson. Sir, I will need to get back with you on 
that as well. I am not exactly sure how the $200 million is 
going to be allocated within the Central Florida program, but I 
can get that information back to you.
    General Semonite. And, sir, we have met with Governor 
Scott. We know that there is an intent to be able to try to 
apply a lot of that back into fixing Herbert Hoover dike. As to 
what the actual dollar is going to be, it might be something 
lower than that. But we are very receptive to be able to find 
ways of incorporating those funds back in.
    And to all of the committee, the Nation doesn't have enough 
money to be able to handle all of these requirements. So if 
there are ways that we can find through the authorities we have 
to take money from States to be able to accelerate some of 
these projects, we want to be very aggressive in doing that. If 
we have our hands tied somewhere, we look forward to working 
with you to be able to figure a better way to be able to 
somehow defer some of those Federal requirements back into 
States or to other entities.
    Mr. Webster. Does the heavy rain south of Lake Okeechobee, 
does that affect the schedule? Does that slow down things or 
anything?
    General Semonite. We are not aware of any significant 
challenge. Obviously the rains down there, we watch every 
single day. But, whether it is rain or drought, we are able to 
adjust and right now I am not aware of any significant issues 
that those rains have on the schedule.
    Mr. Webster. Thank you very much. I yield back.
    Mr. Graves of Louisiana. Thank you.
    We are now going to go to the ranking member of the full 
committee, the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    General, do you happen to have on hand the number for your 
construction backlog?
    General Semonite. I do, sir. And I am glad to be here 
today.
    In round numbers--and I can give you extreme detail if you 
would like--$75 billion. I will break that into three 
subnumbers. If you were to say what that would be in pre-2014, 
it would be around $34 billion. If you look at numbers that 
could be included in the WRRDA 2014, that is probably about 
another $15.4 billion. And then in WRDA 2016, about another 
$10.8 billion.
    And again, we can break those numbers down through business 
lines or different functions if you would like to, but we want 
to make sure that you understand that backlog so we can try to 
work together to work that down.
    Mr. DeFazio. OK. Thank you. We would like some detail to 
see what we are forgoing.
    On your annual operations, not construction, but basically 
maintenance in that, we have, I think, some deferred 
maintenance, too, on top of that number, right?
    General Semonite. Yes, sir.
    Mr. DeFazio. And that would be about?
    General Semonite. We will have to probably give you the 
details on it, sir.
    Mr. DeFazio. All right. Yeah. I was given a number of, I 
think, $30 billion to $35 billion, but I would like 
confirmation on that.
    So I guess my question would be, if we had full use of the 
Harbor Maintenance Trust Funds, both on an annual basis, the 
income, and the theoretical balance in the Treasury of $9 
billion, would it be fair to say that that money could be 
rather quickly and appropriately spent to begin to deal with 
deferred maintenance?
    Mr. Lamont. Ranking Member DeFazio, as far as the Harbor 
Maintenance Trust Fund, the fiscal year 2018 budget was $5.002 
billion, and $3.1 billion of that was devoted to operations and 
maintenance. What we are looking at across the Nation, since we 
have limited resources that are available to us, we are looking 
at the most competitive projects out there, the ones with a 
high demand relative to tonnage on the waterways. We are also 
looking at safety aspects.
    So I understand your concern about the reserve that has 
built up in the Harbor Maintenance Trust Fund. We continue to 
look at the targets and trying to move forward diligently and 
looking at predominantly the economics of the projects, the 
tonnage that is within that port, and also the ability to meet 
the targets. I would say that we are meeting the targets not 
only on the Great Lakes, but on the emerging ports that were 
required by----
    Mr. DeFazio. Well, I have an emerging port that was zero 
funded this year. I believe the Portland District identified it 
as needing work, but somehow when the national office sent back 
a list, that port, the Port of Umpqua, was zeroed out. Can you 
tell me why that happened?
    General Semonite. Sir, General Semonite.
    We are very concerned about small and emerging ports. We 
look at every one of those States. You have 20 ports in your 
State that qualify. On my sheet all the green, 16 of the 20 are 
funded either in the 2018 budget or the 2017 workplan.
    The specific port you are talking about was zeroed out 
initially. That was just because we were trying to do the 
budget so fast at the last minute. We have put money against 
that, and the dredging will be done by September 2017 for 
Umpqua Port.
    The other thing is we are continuing to look through how 
can we continue to be able to get the rest of those ports done. 
In gross terms, in the 2018 budget you have $6.6 million for 
those 20 ports.
    And this is where the committee can really help out. 
Because the committee understood the shortage of the 
requirement, then obviously Congress passed a little bit of 
additional money, and that comes through a workplan. In the 
workplan we are able to take and recommend where we think some 
money could solve some of those deficits.
    In the workplan for Oregon you have another $10.8 million 
on top of the $6.6 million. So that is where we are able to 
secure some of those small and emerging ports.
    And for anyone else on the committee, if you need that 
level of detail, we can give it to any of you to make sure we 
understand how critical those small and emerging harbors are.
    Mr. DeFazio. I appreciate that, General. I appreciate what 
you are doing. I know you are trying to stretch the dollars as 
far as you can.
    I just, on this side, and I have worked with the chairman 
on this, I really want to see that the taxes, which are 
collected from the American consumer, small tax on the value of 
imported goods, is spent on the intended purpose and that we 
free up the annual income for the Harbor Maintenance Trust Fund 
and we begin to prudently spend down the balance to deal with 
some of these problems so that the Corps is not stretched so 
thin that they have to choose one place or another, both which 
need dredging, but say, ``Sorry, we just can't get there.''
    So hopefully we can do that in the next WRDA bill, Mr. 
Chairman.
    Mr. Graves of Louisiana. Thank you.
    We are now going to go to the gentleman from Ohio, Mr. 
Gibbs, for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman.
    I want to first address, just to make a comment on the 
opening statement by the ranking member about waters of the 
United States.
    The President's directive was for the Corps and the U.S. 
EPA to go back and work with the States and their local 
counterparts, the State EPAs, to address the SWANCC and Rapanos 
decisions; and also, when doing that, to keep late Justice 
Scalia's statement about pretty much tried to define navigable 
waters.
    But I have always said that the Clean Water Act was passed 
as a partnership between the States and the Feds, and that the 
States should implement it and enforce it under the guidance of 
the Federal Government. And so his directive, the President's 
directive was just to go back, directing the Corps and the EPA 
to go back and work with the States, and not have over half the 
States sue the U.S. EPA and the Army Corps on this issue. And 
that is what that directive is about. It is not about going 
backwards. So I want to make that clear.
    Thank you for being here, gentlemen. A couple things.
    Section 1122 of the WIIN Act established a pilot program 
for beneficial reuse of dredged material. In tying that in, 
because this is so important in the Great Lakes, the dredging 
issue, in WRRDA 2014 there is guidance on managing the Great 
Lakes navigation system as a single system.
    Those two specific sections, can you give us the status 
where we are on the dredged material for pilot programs, and 
then also, concerning the Great Lakes as a single system, how 
you are going about your work now?
    General Semonite. So, Representative Gibbs, I am going to 
talk about the pilots and I will ask General Jackson to talk a 
bit about the system.
    We are excited about this pilot initiative. We think it is 
a good way to go. We have gotten a lot of letters from a lot of 
you on recommending those pilots.
    We want to, first of all, establish the criteria as to how 
are those pilots going to be picked. And we are working through 
that right now. We are going to put that out on a webinar, we 
are going to have it out for 60 days where everybody can have 
input on what is the criteria. Then once we do that, then we 
will assess those products.
    Just as Chairman Graves said, though, we need to be more 
aggressive on trying to get all this implementation guidance 
done. And the fact that we are still working through some of 
this, we don't see a delay on this one. We want to get these 
pilots identified by the end of the calendar year and we want 
to continue to work with all of you to make sure we understand 
the best we can do to get those pilots so that they are 
justified.
    There is no shortage of nominations for them. We are 
aggressively trying to work this pilot program. But we want to 
do it so we are collaborative, get the criteria on the street, 
everybody comment on the criteria, and then we will assess the 
pilots back against the criteria.
    Ed, can you hit the second point that the Representative 
had?
    General Jackson. Congressman Gibbs, just to clarify one 
point on the implementation guidance, too, that is one of our 
top priorities and we are trying to make sure we work really 
hard to get it right.
    I think, based on the last schedule that I saw and the last 
several discussions that I have had within our staff, we are 
pretty close to finalizing the implementation guidance. I think 
we should have it out sometime in the next month or so.
    So we are going to keep working that. It is a huge priority 
not only for Ohio, but for the whole Nation to try and get that 
right. We appreciate the Congress giving us the opportunity to 
look at these in a unique way.
    Sir, could I get you, if you don't mind, to repeat the 
second question that you--that General Semonite wanted me----
    Mr. Gibbs. Well, in WRRDA 2014 we set up guidance that the 
Great Lakes be considered as a system, a unit. And so when you 
are going about your work, I just wanted an update on the 
functioning of that as a unit. Because, as we know, in the 
Great Lakes the ports are all interdependent so much. So I just 
wanted your thoughts, the mental process, I guess, of how you 
are getting there and that establishment with funding and all 
that.
    I will just tie that into my second part of the question 
with the Soo locks, too. I didn't mention that yet, but I 
wanted to before I run out of time.
    We sent a letter, the Great Lakes Members of both the 
Senate and the House, sent a letter to you and General Semonite 
in February about the BCR, benefit-cost ratio, and so I need an 
update on that and if you are going to use the same criteria as 
you do in all locks.
    Because in our letter we put there, there was a criteria 
about off-loading and conveying and loading, which doesn't seem 
to make a lot of sense to me either.
    I think that the Soo locks are of national significant 
importance and ought to be a top priority, along with Mr. 
Babin's issue down in Houston, as you well know. So I just tie 
it together how important the Great Lakes are and how you are 
looking at that when it comes to funding in the Soo locks.
    General Semonite. Sir, let me jump in first.
    When you write me a letter I normally go there. I try to be 
on the ground and try to look.
    I just came back from Soo lock. I spent 3 days up in the 
Great Lakes. And everything up there is a system. We look at, 
how does the process go through the Great Lakes? If we are 
going to do something, we don't want a critical point that is 
going to slow down other things.
    So whether it is the environmental part; whether it is EPA 
and GLRI money; how do you make sure you have the right kind of 
money coming back in to be able to take care of that system. So 
we are committed to do that through all those different 
business lines.
    Now, specifically Soo lock, I had heard about it a long 
time, but I had never actually seen it. I was amazed at the 
potential of that particular lock and how it takes care of the 
economy and continues to be effective. You have a single 
source, 100 percent of iron ore goes through that lock. I met 
with all the shippers up there, and I met with all the steel 
industries, and had to be at the front of Soo lock to be able 
to understand how we can do that.
    The recent homeland defense report specifically identifies 
the risk to our economy if that were to go down. You know there 
are four channels. We are only really using one for the big 
ships going through.
    I personally think that we have to find a unique way of 
trying to figure out how to justify that particular project. 
Just the BCR, if you were to put it in the rack and stack of 
all other projects, doesn't identify the significance or what 
the value back to the Nation would be, only because it is a 
one-of-a-kind kind of lock.
    So this is where we want to work with the committee to try 
to make sure that we are doing everything we can, that you 
understand the significance of that lock, and therefore 
hopefully let it compete for the appropriate amount of funding.
    And I will certainly let Mr. Lamont or General Jackson jump 
in.
    Mr. Lamont. Congressman Gibbs, thank you for the 
opportunity to jump in here.
    I share the Corps of Engineers' concern about moving the 
economic reevaluation report along. We are doing everything we 
can do to make sure this thing is funded so that we can deliver 
the final product and hopefully result in a report that we will 
be able to take to the administration for concurrence.
    General Semonite. Sir, that district has said they will get 
it done in 7 months. We are working some funding challenges 
right now to let them get the study done. But I looked the 
colonel in the eye and said, ``I need this thing done as fast 
as we can.'' I would like it done by the end of the year. It is 
contingent on the money, but that is our issue, we will try to 
figure that out.
    Ms. Gibbs. I appreciate it. Thank you. I am out of time. 
Thank you, Chair.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the gentleman from California, Mr. 
Lowenthal, for 5 minutes.
    Dr. Lowenthal. Thank you.
    I have really two questions, one primarily that pertains to 
my district, some of the issues in one that really has to do 
with an issue that I have become more familiar with recently, 
and that has to do with the beneficial use of dredged material.
    I represent in California the Port of Long Beach, which is 
the second busiest seaport in the Nation. It is part of a 
harbor complex with the Port of L.A. that moves approximately 
40 percent of the Nation's cargo, container cargo, in and out 
of our country.
    The Port of Long Beach is the subject of an Army Corps 
feasibility study on a series of navigation improvements, to 
construct an anchorage for large liquid bulk vessels, to deepen 
several approach channels, basins, berths, to improve 
navigation for both container ships and for liquid tankers.
    The Los Angeles District is scheduled to submit its draft 
report on October 16. First question is, will that target date 
be met? Study is expected to be completed next July. But the 
administration's budget request anticipates no funding for new 
construction on water resources projects.
    How does delayed initiation of construction affect these 
projects? Does it mean that we have to go back and conduct the 
review again? Does it increase costs?
    You know, my local stakeholders are spending $1.5 million 
on this study. And the question is, what is the value of the 
study to them if the Corps is not going to fund any new 
construction projects? So that is the first question.
    The second question I will also ask before you answer is 
section 1122 of the WIIN Act required that the Army Corps of 
Engineers begin to implement a pilot program for the beneficial 
use of dredged material within 90 days. This is a topic that 
Congressman Graves has educated me on, especially about the 
minimal use of dredged materials to enhance the Louisiana 
wetlands. So I have learned over the last few years about this 
issue.
    It is now nearly 4 months past the 90-day deadline to start 
this project and we haven't seen any implementation guidance 
for this section. What is the delay in moving forward with this 
guidance? When can we expect it? How can you assure me that the 
implementation of this program will move forward in a timely 
manner?
    We have heard that nearly 100 beneficial use projects have 
been submitted by States, by stakeholders, and Army Corps of 
Engineers districts to be 1 of the 10 projects, pilot projects. 
This program now seems like it has huge support from local 
communities.
    The question is, how do you plan on deciding which projects 
will be included in the initial 10 pilots? What is going to be 
the process for soliciting projects? Will there be a public 
process to select the 10 projects? How will you make sure this 
isn't just happening behind closed doors? And when can we 
expect a decision on these 10 projects?
    So those are the two. Why go through the feasibility study 
if we are not constructing anything and what is that going to 
be? And let's talk about what we in a bipartisan way are very 
concerned about, and that is making sure that we implement the 
pilot program for the beneficial use of dredged materials.
    Thank you.
    General Jackson. Congressman, I would like to take a chance 
to answer both of those questions for you. And I will start off 
with the Port of Long Beach.
    Dr. Lowenthal. Thank you.
    General Jackson. The draft feasibility study is due to be 
out in spring 2018, as per the schedule, according to the 
latest report that I got. So we are in good shape there.
    I know that we did receive funding in the workplan and also 
in the budget which will help us, along with carry-in funds, to 
get the final feasibility study done and out in 2019, which is 
when it is scheduled to go out.
    Dr. Lowenthal. I understand. So you are talking about we 
are going to get that feasibility study. What about the 
construction?
    General Jackson. Well, yes, sir. I can't speculate on what 
the administration is going to allow us to fund or what will 
get new starts on into the future.
    But what I am committing to in the Corps is to try to get 
the study done so we can get the authorization in, because 
without the authorization, obviously, there would be no 
construction to be had.
    So what I am committing to today is to push with everything 
we have, within the control we have for that feasibility 
report, to get that delivered so it can compete favorably, 
hopefully, among other interests to receive a new start in 
construction funding.
    Dr. Lowenthal. And that is all we ask for.
    General Jackson. So that is what we will do.
    As to the----
    Dr. Lowenthal. Section 1122.
    General Jackson. As to the section 1122, sir, we are 4 
months behind schedule and I have no excuse, so I won't make 
one. What I will say, though, is that we are committed to 
getting the evaluation criteria right. And I am thrilled to 
death to hear----
    Dr. Lowenthal. You should always be committed to getting it 
right.
    General Jackson. Yes, sir. I am thrilled to hear the amount 
of participation that we are getting from the States in 
identifying opportunities for this, because this a huge issue 
for the Corps, much more, much bigger than the 10 studies that 
we have the opportunity to look at in this particular 
provision.
    The Dredged Material Management Program overall is 
something that we are looking at very closely in the Corps of 
Engineers. And this pilot study will really help us to 
determine some best case ways to work dredged material 
management, to make the most beneficial use all across the 
Nation to solve other problems that we have. So we are 
committed to doing this.
    We are scheduled to have the implementation guidance out in 
the next month or so. This is definitely designed to be 
collaborative and transparent in how we put it together.
    So as we finalize implementation guidance and we develop 
the evaluation criteria that will be contained in that, we will 
do that collaboratively. We will make sure that the committee 
sees what we are doing and how we are doing it. And we will 
take feedback to make sure that we get it right.
    Dr. Lowenthal. Well, thank you. But just before I yield 
back I would just like to impress upon you, in a Congress that 
frequently is criticized for not acting in a bipartisan way, 
this message is coming to you in a bipartisan way. We want to 
see this program implemented.
    General Semonite. And, sir, to answer your specific 
question, we want those pilots identified by the end of the 
calendar year, of this year.
    Mr. Lamont. And, sir, if I could jump in here real quick. 
Army Civil Works is working diligently with headquarters U.S. 
Army Corps of Engineers to make these things happen.
    Mr. Graves of Louisiana. Thank you.
    Dr. Lowenthal. Thank you. I yield back.
    Mr. Graves of Louisiana. We will go to the gentleman from 
North Carolina, Mr. Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    I appreciate our witnesses being here today.
    And I have a list of local projects that I have interest 
in. And I see the General smiling, so maybe he knows of some of 
them.
    First, there at Wrightsville Beach, which obviously is in 
my district, one of the most beautiful places you could ever 
go, I am curious what the timeline for the Post-Authorization 
Change Report is, if you can give me any update on that.
    General Semonite. Sir, I will let Ed look up the timeline 
while I am looking at it. But you know we have a section 902 
limit we are concerned about, $24 million, we are at $23 
million right now. So we want this PACR done so in no way does 
that come close to that.
    If we don't find the date here in a couple minutes we will 
get back to your staff, make sure you know. But we are tracking 
exactly where this is at and nourishment of that beach is 
critical, so we want to make sure we keep this as a priority.
    Mr. Rouzer. The one question I have directly related to 
that with the limit, the section 902 limit, does it make sense 
really to limit the cost of a project that spans 50 years based 
on the cost estimates calculated in the 1980s? It seems like we 
need to readjust that. Have we ever thought about readjusting 
that?
    Mr. Lamont. I think that is a very interesting question, 
Congressman. I have not personally thought about it. But I 
think relative to hurricane storm damage reduction projects, 
coastal storm damage reduction projects, the 50-year life is a 
consideration relative to the development of the plan, of the 
economics. And obviously, as you point out, through the initial 
construction and then periodic nourishments, the cost of the 
project.
    We might want to collaborate and talk further about that. I 
think you raise an interesting point.
    Mr. Rouzer. Thank you.
    Just south of there at Carolina Beach, they have been 
trying to get the study for the beach renourishment evaluation 
report since 2014. The basic question is, why is this taking so 
long? Is there a need for such an arduous process to get a 
cost-benefit ratio analysis for a project that has historically 
been proven to be good and necessary? And the other obvious 
question is, why can't we speed up this process by allowing 
some decisions to be made at the district level?
    General Semonite. Sir, I think the answer to the last half 
of that, one of the things, and I have talked to Chairman 
Graves about this, I think over the last several years we have 
allowed some things to migrate to Washington, DC, that perhaps 
are not the right things to be there.
    So Mr. Lamont and I are working very carefully to be able 
to figure out how do we delegate a lot of this back down. We 
can talk section 408s, we can talk other areas.
    But we have done a lot of work to be able to push some 
things back to the divisions or back down to the districts to 
try to make sure that some of those decisions are down there.
    We do have a full sheet on Carolina Beach.
    Ed, I don't know if you have the specifics on it.
    But this one here we certainly are tracking where it is at. 
In the workplan we did put an extra $12 million against that 
one. And if need be, I will come back over and see you and give 
you specific details on Carolina Beach.
    Mr. Rouzer. Can we get confirmation that those funds can be 
carried forward to fiscal year 2019? That certainly helps in 
terms of planning.
    General Semonite. I see no problem with that, as far as we 
know. Unless there is a reason, we would say yes. But I would 
see no reason why we couldn't carry those in.
    Mr. Rouzer. A couple other things, moving a little further 
south in my district from there, a provision that we included 
in WRDA last year, in 2016, dealing with a no-wake zone there 
at Southport Marina. And this is a little pet project of mine 
because I have been there, I have seen the potential for a 
disaster. You have a fuel dock sitting right there.
    The locals, State and local officials, have talked to me 
about the incidents that have already occurred. You have 
recreational vehicles that are flying through there, huge wakes 
that hit folks when they are fueling up there at that fuel 
dock. And there are a number of different minor accidents than 
have already occurred because of that.
    I don't see why the Corps cannot work with the local and 
State officials to establish a no-wake zone there. It would not 
affect commercial traffic, we made that very clear in the 
language.
    General Semonite. So, Representative, this is a great 
question because you sent me a letter the 1st of May, and I 
looked at it and I said, this has got to take 2 or 3 days to be 
able to figure this out, why are we waiting a year and a half? 
And so as we go back----
    Mr. Rouzer. That is my question.
    General Semonite. And it goes back to what Chairman Graves 
said on implementation guidance. So as I get back into this 
thing, this gets extremely confusing because it goes back to 
what are the rights of people that are navigating the inland 
waterway, versus what about personal safety on rec areas. And 
that is a very, very contentious question. And I want General 
Jackson to walk you through that.
    But what we are trying to do is make sure that if, in fact, 
we establish guidance, it is going to be the same as it is in 
North Carolina versus Florida or anywhere else in the inland 
waterway.
    Ed, can you clarify a little bit more?
    General Jackson. Yes, sir.
    Congressman, thank you for the question.
    Just some quick clarification on what General Semonite 
said. We have about a 1,200-mile waterway, we have about 500 
marinas in there, and we lack the ability to police all of that 
with no-wake zones.
    So what we are trying to figure out as we work through the 
implementation guidance is how can we take the intent of 
Congress that came out in implementation guidance, work it 
closely with the Coast Guard, who will help us with all the 
enforcement actions, and then engage with individual States and 
locals who have very specific problems as the one you just 
mentioned.
    So we are very laser focused on that one because we already 
know that is a problem. I don't know about the other 499 
marinas that are out there. But we have got to write the 
guidance in a way that allows us to execute what needs to be 
done to maintain safety. And that is our number one concern, is 
the safety, as you just described.
    So we owe that implementation guidance. We are trying to 
synchronize that. And we are trying to, as quickly as possible, 
get that completed so we can service the target that you are 
talking about. We are already sort of ahead of the game there 
in North Carolina, but there will be others that come out. We 
just have to make sure we get that right.
    Mr. Rouzer. Well, I have been there, I seen the traffic. 
And in season it is very, very congested. You have folks flying 
through. It is a disaster waiting to happen, and I think we 
need to do everything we can to prevent that.
    It seems to me we try to pursue these cookie-cutter 
approaches and every situation is a little different. You know, 
it is one of those things where I think good common sense and 
just good courtesy would address the issue. And the 
bureaucratic maze that you are going through in order to adopt 
a very commonsense measure just is a little flabbergasting to 
me. So I appreciate your attention to it.
    General Semonite. Congressman, we are definitely tracking 
this. I have already met with the three sergeants at the Coast 
Guard to be able to work through some of this. So you have our 
commitment to continue to resolve it.
    As Ed said, though, we want to make sure we don't try to do 
some type of guidance that ends up having second and third 
order effects that causes more problems on the other hand. So 
we have to come up with the right solution for those people, 
because it is a life-safety issue.
    Mr. Rouzer. Thank you.
    Mr. Graves of Louisiana. Thank you.
    We are going to go the gentleman from California, Mr. 
Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, but I believe Ms. 
Esty was here before me. I yield to her.
    Mr. Graves of Louisiana. I recognize the gentlewoman from 
Connecticut for 5 minutes, Ms. Esty.
    Ms. Esty. Thank you very much.
    And thank you, Mr. Garamendi, you get chivalry award of the 
day. Thank you.
    Well, thank you, Chairman Graves and Ranking Member DeFazio 
for holding today's important hearing on the implementation of 
the Water Resources Reform and Development Act of 2014 and WRDA 
2016.
    And I want to thank our witnesses here today, Mr. Lamont, 
Lieutenant General Semonite, and Major General Jackson.
    Actually Lieutenant General Semonite, as a member of the 
Committee on Veterans' Affairs, I really want to thank you for 
the Corps' commitment to hiring veterans and for our Wounded 
Warriors. I understand there are 1,300 you may have deployed 
through the Corps and elsewhere, and that is a really important 
commitment. So I wanted specifically to thank you for that.
    As we discuss WRRDA 2014 and WRDA 2016, I want to focus on 
programs in my district, in the Fifth Congressional District of 
Connecticut. There are 13 flood management projects, flood risk 
management projects in my district, including dams, reservoirs, 
and local protection projects. All 13 of these create local 
jobs, prevent hundreds of millions of dollars in flood damage, 
and have spurred recreational tourism that is very important to 
the State.
    I will give you an example. Hop Brook Lake Dam on Hop Brook 
Lake holds back 2.2 billion gallons of water, and the estimates 
are that it would be $108 million of flooding damage if that 
were to go. The recreation attracts 200,000 visitors a year, $2 
million of economic activity. And that is just 1 of the 13 
projects in my district where water is everywhere in northwest 
Connecticut, and we really need to manage it.
    Now, many of these projects date back to the fifties and 
sixties, and we were discussing ahead of the hearing how that 
was sort of the heyday of the Corps. It is when my grandfather 
worked on Corps projects in the Midwest. But given the age of 
those projects, quite a number of them would be appropriate for 
temporary or permanent alteration requiring a section 408 
review.
    Now, looking at that budget, we are not at the end of the 
fiscal year, we have 2\1/2\ months to go, and 95 percent of 
those funds have been expended already. Is there any funding 
available to do section 408 reviews?
    So I am going to lay a couple of questions out. That will 
delay projects, right? If they don't go to section 408 review, 
then you can't move forward. And if we are not going to have 
enough funding, what would you recommend that we put in those 
budgets for 2018? We are putting together budgets right now and 
we should have appropriate funding.
    And the last question, because I am going to put them all 
out there and then give you folks time to respond, is 
continuing authorities projects. The CAP programs are very 
important in my district. A lot of the communities have used 
them. But, again, we keep running through the money.
    Can someone tell me how many projects, what percentage of 
the projects that might be eligible actually receive funding? 
And again, if we wanted to fund all of them, about what would 
we be looking at?
    So with that, I await your answers. Thank you.
    General Semonite. So, ma'am, great questions. And let me 
hit a couple of these and I will let General Jackson hit on the 
CAP.
    Section 408s are very critical. We talked about delegating 
them. Chairman Graves and I have talked about that. We need to 
do more in section 408s. We can get more into detail as to who 
approves them and at what level that is at.
    That is an issue with funding. In 2016 we had $4 million, 
in 2017 we only had $3 million to do section 408s. We were able 
to reprogram an extra half a million dollars for $3.5 million.
    Even this morning, Mr. Lamont and I asked our staff, can we 
make it to the 1st of October? They assured me that on those 
that are critical we are going to find ways of doing it. It 
doesn't mean we have all the money we need to have, but we are 
stretching that money as much as we can to the 1st of October.
    Now, next, in 2018 we have $8.5 million, so we will be OK 
once we get to the 1st of October. I am not going to tell you 
it is perfect, but we don't think that any critical projects 
will be held up because of section 408s. If any of you have 
those, then we will certainly come back and let you know what 
we can do to fix it.
    The other thing before I go to General Jackson, I do want 
to say that, you talked about veterans, the Corps not only 
works on Civil Works, but we are very, very committed to the 
Department of Veterans Affairs and we have been asked to do 14 
of their big hospital upgrades. We are doing about $8.5 billion 
in VA hospitals all around the United States. We couldn't be 
happier to work for a better organization to take care of our 
veterans out there. We are excited to do that.
    Ed, can you talk CAP real quick?
    General Jackson. Congresswoman, I appreciate the question 
on the continuing authorities program. I think your question 
was, what is the number of eligible projects that actually 
received funding?
    Ms. Esty. Percentage, what percentage?
    General Jackson. Yes. So, if that is OK, I am going to get 
that information and lay that out for you in greater detail so 
you know specifically which ones those are rather than just a 
number. So I will follow back up with you and your staff at a 
later date to give you that information.
    Ms. Esty. Thank you. And, again, I know we have new 
representation in our district up in Boston. Look forward to 
having him in to see our wonderful, beautiful northwest 
Connecticut and the projects there.
    Mr. Lamont.
    Mr. Lamont. Congresswoman, I just want to echo what General 
Semonite said about the section 408 program. We hear loud and 
clear from all Members and constituents the concern about the 
delays. We are making concerted efforts to make sure this 
program is funded, to do our due diligence, to the American 
taxpayer and to the communities that want to explore this 
opportunity.
    So we are doing everything we can in conjunction with 
headquarters here to make it happen.
    Mr. Graves of Louisiana. Thank you. Thank you, Ms. Esty.
    I want to perhaps give you a different perspective on that. 
I appreciate your interest in section 408. And, General, you 
and I have talked about this a little bit.
    Nothing in the law has changed in section 408 for over 100 
years. And we have seen this explosive growth in how section 
408 has been exercised within the Corps of Engineers. I am not 
sure we need additional money. I think there needs to be a 
reevaluation of what congressional intent was over 100 years 
ago with section 408.
    There have been some aggressive amendments that have passed 
the House of Representatives in regard to reining this back in, 
and I want to continue making sure that we are working on this 
to prevent projects from being obstructed.
    We are going to go to the gentleman from Florida, Mr. Mast.
    Mr. Mast. Thank you, Chairman.
    And thank you for your testimony this morning. I appreciate 
it.
    I want to talk about Lake Okeechobee also, and the 
Everglades, everything that has gone on down south of Lake 
Okeechobee and north of Lake Okeechobee as well.
    General Jackson, you noted already in your comments just 
how important it is to get all of the preparatory work done in 
these projects. You just said that. I couldn't agree more.
    And, General Semonite, you just said in your remarks it is 
important to keep water flowing south, and that a lot of water 
has already flowed east and west. I am out the east coast of 
that where all that water flows. And you also said that if 
there are ways to take money from the States to complete these 
projects, you are certainly most receptive to that, the Federal 
Government doesn't have all the money to do that. So I wanted 
to ask you a little bit about that.
    You know, Congress has already approved a reservoir south 
of Lake Okeechobee as part of that integrated delivery 
schedule. The State of Florida has authorized and committed to 
matching funds to expedite the Everglades Agricultural Area 
Storage Reservoir. And the South Florida Water Management 
District has said that they have reached out to the Corps, 
saying that the Corps is the appropriate partner for expediting 
this project. So I just wanted to ask you a few questions on 
that.
    What do you think is the earliest completion date we can 
get that southern reservoir done?
    General Semonite. Congressman, I think you are talking 
about a new reservoir that is not already in CERP. Is that 
understood?
    Mr. Mast. It is one that was originally authorized as part 
of the integrated delivery schedule.
    General Semonite. OK. I am with you now.
    So there are three that we are looking at. C-44 is the one 
that we call Indian River Lagoon. That one has been funded both 
in 2018 and 2017 in the workplan. I will get you an exact date 
on that one, but we don't see any significant issue on that.
    The two you are probably worried about----
    Mr. Mast. Not to interrupt you, but the one that is 
referenced in the State of Florida as Senate bill 10, if you 
are familiar with it, it is that one we are talking about. SB 
10 in the State of Florida, that southern storage reservoir 
just south of Lake Okeechobee, that is what I am referencing 
here.
    General Semonite. Sir, I am going to have to get back to 
you. I've got C-23 and C-24; I don't have a good read on SB 10. 
But let me come in, we will lay this out for you, and answer 
all of your questions. This is a very, very complicated 
problem, you are aware of, and I want to make sure that we are 
giving you the right answer on this.
    Ed, do you have SB 10? You tracking?
    General Jackson. No, sir. We will follow up with your staff 
and give you a complete laydown on it.
    Mr. Mast. I know you all noted how much work you had done 
in the State of Florida, so it has been probably one of the 
biggest issues that has gone on in the State House and the 
State Senate in Florida, this SB 10 that has been going on 
there. I can't imagine how----
    General Semonite. There are some proposals that we are 
hearing about, that the State does want to do some things, and 
we want to make sure that those are integrated back into the 
other existing Everglades projects. This is where we want to 
make sure the South Florida Water Management District is 
involved with the rest of it. I think that is where some of the 
issues might be. It is not a current Corps project. We want to 
figure out how we can work together with you, whether we should 
or should not do it. I think that is what we are working 
through.
    Mr. Mast. What benefit would it be to have authorization to 
begin these feasibility studies sooner rather than later? How 
many years can you knock off if you get these studies done 
sooner rather than later? Can you expedite these processes by 
starting the studies sooner?
    General Jackson. Sir, without looking at the integrated 
delivery schedule, I think the sooner we can start studies, 
assuming that all the preparatory work that has to be done in 
sequence before that can be done, we should be able to move out 
faster on it.
    I would need to look at each individual study and each 
individual project line to figure out where we can buy 
additional time and what additional resources might be required 
in order to do that.
    But, certainly, the South Florida Water Management District 
and the State of Florida have been tremendous partners with us 
through the whole life cycle of this project. I welcome any 
continued discussions to see how we can move faster on this.
    Mr. Mast. I want to shift gears. Same subject, a little bit 
different piece of the conversation, a moment here.
    The Corps, last summer, the Corps of Engineers transferring 
over 1 million gallons of water a minute in some cases from 
Lake Okeechobee into the waters east and west of Lake 
Okeechobee. And oftentimes there have been massive algal blooms 
that were literally being transferred from one of those bodies 
to a body of water that didn't have those algal blooms in them.
    So I want to ask about that. When the Corps is transferring 
debris or toxins or pollutants from one body of water to 
another body of water that otherwise wouldn't be affected by 
them, who do you think should pay to clean that up?
    Mr. Lamont. Sir, I will jump in here for starters.
    Relative to the nationwide issue, not only in the State of 
Florida, it is the State's responsibility to ensure the quality 
of the waters.
    Now, I understand what you are saying relative to runoff 
into Lake Okeechobee and the distribution canals, if you will, 
from----
    Mr. Mast. Not runoff. The Corps taking an algal bloom from 
Lake Okeechobee and moving it into a completely separate river 
to the east and west of Lake Okeechobee, not runoff.
    Mr. Lamont. Those algal blooms, sir, generally are as a 
result of pollutants coming into the system. I think it would 
be a concerted effort, relative to the Federal Government, to 
look at what the States are doing; the counties and 
municipalities, relative to their wastewater treatment, and 
what is being dumped into the water body that ultimately comes 
into Lake Okeechobee and then is distributed during flood 
reduction needs out of Lake Okeechobee.
    Your point is well-taken. There needs to be a holistic view 
on that. But generally speaking, it is the States and the 
municipalities that are responsible for the quality of their 
waters.
    Mr. Mast. My time has expired. Thank you for your comments.
    Mr. Graves of Louisiana. Thank you.
    I will go to the gentleman from California, Mr. Garamendi, 
for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Generals and Mr. Lamont, thank you so very much for the 
work that the Corps of Engineers does all across this Nation, 
and particularly in my district, the Sacramento Valley 
District. We have had very good relationships with the ever-
revolving number of colonels that have come through. Most 
recently, Colonel Helmlinger at the South Pacific Division. So 
my thanks to all the work that you do. That is not to say there 
are not always issues, of course there are, and I have my list 
of them also.
    The Hamilton City project underway, specifically, it is 
going along. There have been some funding issues, particularly 
the removal of funding for the 2017 omnibus. The issue here is 
not that the project will go forward, we have been told that it 
will, but it is really can you give us an early heads-up. This 
is just a matter of transparency. And if you could make that 
the standard operating procedure, it would be helpful to all of 
us.
    General Semonite. Thanks, Congressman. And, again, our guys 
are more than willing to come lay this out in more detail if 
you want to.
    So it did very well in 2016, got $15 million. In 2017, the 
reason that there wasn't money put against it on the workplan 
is we actually had carryover from 2016 that came into 2017. 
There was no work that wasn't done in 2017 because we didn't 
have enough money. In 2018 it is doing well at $8.3 million, 
and right now it looks like we are going to award the next 
phase in 2018.
    So we want to continue to keep priority on Hamilton City, 
we are tracking it. And right now we don't see any delay of the 
project. But it did not get budgetary money in 2017 mainly 
because we were able to handle that capability with carryover 
from the prior year.
    Mr. Garamendi. General, I don't know if my colleagues on 
this committee have noticed, but I have yet to see such a well-
prepared general appear before us. Is there any issue that you 
anticipate from any of us that you are not prepared to brief us 
on?
    General Semonite. Sir, I think the biggest single thing 
that we lay awake worrying about----
    Mr. Garamendi. You have missed my point, General. I just 
want to compliment you and your staff for an exceptionally 
well-prepared briefing. Every time we are called upon, you are 
running through that big stack of papers, and you know exactly 
the questions we are going to ask. So congratulations and thank 
you for that.
    We have gone through the section 408 issues. The chairman 
has spoken to this issue. It is an ongoing issue. The section 
408s are slow in being processed, the numerous numbers that you 
are faced with. If there is an underlying statutory issue, we 
will try to deal with that. We know that there is an ongoing 
funding issue. So I won't go back into that.
    Also, the committee has already brought up the issue of the 
beneficial used of dredged material. The San Francisco Bay 
region, the delta, Sacramento-San Joaquin Delta, are in line. I 
know you are going to come up with a report, I think it is 
sometime in September, if I followed the earlier questions.
    So we don't go back, and since I am a farm district, we 
say, we don't need to plow the field a second time, but we do 
need to dredge a second time. So I will just let it go at that.
    In your testimony you raised something that we have never 
really discussed here, and I just want to raise this issue. I 
guess this is actually Mr. Lamont--no, it is yours, General 
Semonite.
    You say, ``First, we continue our work across the globe 
with presence in more than 110 countries, supporting national 
security and our combatant commanders with civil works, 
military missions, and water resources research and development 
expertise.''
    Would you please deliver to the subcommittee the amount of 
money in your budget, in the OCO budget, and any other budget 
that you are spending around the world on those many, many 
projects in support of national security?
    I have never seen in the many years that I have been 
involved in this a specific enumeration of the resources of the 
United States that are spent by the Army Corps of Engineers on 
those many, many projects.
    General Semonite. Sir, we will definitely do that. And just 
to give you a very, very short answer, we, the Army Corps of 
Engineers, work for several different entitles. We work for the 
Navy, the Air Force, the Department of Defense. A lot of that 
money that we are doing around the word is OCO money or it is 
money that is funded through those COCOMS to be able to do it.
    Another good example is we work with interagency partners. 
The Economy Act allows us to do this work. So we are in Mosul 
today, in the Mosul Dam, we have been working there a year 
trying to make sure the Mosul Dam doesn't break and have 11 
billion gallons going downstream. That is Department of State 
money, with a little bit of augmentation from the Department of 
Defense.
    But we are more than willing to lay that out for you, 
because these other nations also have civil works challenges. 
And where we have a body of knowledge that we can share, given 
the right authority to share that, we want to be able to make 
sure that our technology advances are going to other countries 
so they can benefit as well.
    Mr. Garamendi. I appreciate that, and one of the reasons I 
used the word revolving colonels is you took the colonel that 
was working on our projects in the Sacramento Valley and sent 
him to Mosul. And he certainly understands the issue of seepage 
beneath levees and dams. I thank you for that.
    My time has expired, but I would appreciate that 
information as it is money that is otherwise not available for 
domestic projects. So thank you for that, and thank you for the 
work that you do, and for being so very, very well prepared.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the distinguished gentleman from 
Georgia, Mr. Woodall, for 5 minutes.
    Mr. Woodall. Thank you, Mr. Chairman.
    And I want to echo Mr. Garamendi's comments about this 
panel. You see this dais filling up a little bit. I think the 
word is getting out, Mr. Garamendi, that this is worth being a 
part of. It is so frustrating to set this time aside where we 
could really do some great things together and find folks who 
are unprepared to work with us. So I am grateful to you for all 
the time you have put in ahead of time as well.
    I don't have a Corps project in the district that I want to 
talk about, but I do have one off the coast of the great State 
of Georgia.
    I know funds are limited in these times, and I remember the 
first Corps estimate of the dredging in the Port of Savannah 
that I saw, said, hey, we think we can get this done in about 
6\1/2\ years. The best way to maximize taxpayer resources, it 
will be on about a 6\1/2\-year build. We are stretching that 
number out now.
    General Semonite, in your opening statement, it spoke to 
me: ``We earn our credibility, our reputation, our value by 
delivering the program.'' I know that is where your focus is. 
We have constituent concerns here. You have a program to 
deliver.
    Help me to understand the merit when the administration 
controls some of those dollars, those allocation of resources. 
What is the merit of spreading those in a thin way across the 
entire country instead of targeting the highest economic 
benefit projects?
    Now, if we are talking about flood control, as Ms. Esty 
talked about earlier, I understand that is a different issue, 
different degree of urgency when we are talking about lives and 
property. But when we are talking about deep draft dredging, 
help me understand the merit of funding multiple projects, 
overfunding one, getting it done, and then funding the next. 
How are we maximizing taxpayer resources?
    Mr. Lamont. Sir, if I understand your question correctly--
--
    Mr. Woodall. It is not lost on me, Mr. Lamont, that that 
question is being deferred to the senior official performing 
the duties of the Assistant Secretary of the Army. That is a 
challenging title to have to shoulder, and I appreciate your 
shouldering it.
    Mr. Lamont. It certainly is, sir. And it is a challenging 
question relative to the limited funding that the Corps of 
Engineers is provided and how we have to prioritize. A lot of 
this comes down to economics, it comes down to life-safety 
issues also.
    And we balance that. For flood damage reduction projects, 
clearly we are looking at economics, we are looking at the 
potential for life-safety issues. For navigation projects, they 
are primarily driven by the economics. It is called the NED 
benefits, the National Economic Development benefits that are 
delivered to the Nation.
    And all ports are in competition with each other, not only 
amongst themselves, but they are in competition for available 
Federal funding.
    We are finding a lot of project sponsors are not able to 
wait long enough for Federal funding to qualify, therefore, 
they are signing project partnership agreements with us where 
they are willing to upfront a lot of the Federal and non-
Federal funds to get these key projects moving. And we support 
that. I don't know if I have answered your question directly.
    Mr. Woodall. Well, I don't think so. We have certainly done 
that in Georgia. We ponied up the money upfront. We want to be 
good partners in that space.
    But what I don't understand, on behalf of the American 
taxpayer, is how having two unfinished projects is superior 
economically to having one finished project. We have got these 
deep draft projects going on across the country, knowing that 
there are not enough dollars to fund them all.
    What other than economic interest is the driver in making 
those allocations from the administration's point of view? We 
are costing the taxpayer money by delaying projects. We are 
costing the taxpayer money by stretching things out over more 
years, instead of getting them done in a compact amount of 
time.
    I understand my project may win, my project may lose. I 
don't understand how the American taxpayer wins by underfunding 
multiple projects instead of properly funding one.
    Mr. Lamont. Another good point, sir. And within our $5.002 
billion program, we are roughly about $1.2 billion for 
construction activities.
    With this fiscal year 2018 budget, the administration put 
an emphasis on basically moving the construction that is 
underway along to complete it as soon as possible.
    At the same time we are trying to complete feasibility 
studies. Over the last 2 fiscal years, there was a lot of 
workplan money for 16 studies that we are trying to get moving 
along so they will qualify for possible new start construction 
consideration.
    But with that, that small amount of available construction 
funding, everything is so tightly in competition that it comes 
down to the benefit-cost ratio. As I know a number of you 
Members know, it comes down to a benefit-cost ratio of 2.5 to 1 
at a 7-percent discount rate to qualify for available Federal 
funding.
    So that is why you are seeing a lot of these ports jump in 
the game right now and say, we can't wait. If it is an 
authorized project, we want to start the project now and help 
you along. You will see Charleston Harbor, for example, doing 
that right now.
    Mr. Woodall. Well, there are a lot of families in my part 
of the world who put food on the table because of the success 
your projects bring economically to our region. I am grateful 
to you for your service.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the gentlewoman from Florida, Ms. 
Frankel, for 5 minutes.
    Ms. Frankel. Thank you.
    And thank you, all of you, for your service. For Florida, 
obviously, with sand and dredging and ports and Everglades, 
very important to our economic and environmental well-being. So 
working with you is important.
    I have four questions. I am going to try to get through 
them quickly so you can answer them.
    Number one, I thought I heard you say that there are some 
blockages using Florida State resources in order to move 
forward with Everglades funding.
    Number two question, in our last WRDA bill, and then I 
think the next one was called the WIIN bill--something like 
that, right, WIIN--we gave you all a 3-year deadline, 
basically, from authorization of a feasibility study to get 
that completed. I am just wondering if you are optimistic that 
is something you are going to be able to meet.
    My next question is, is it true that ports are being told 
that in order to get a new start they have to actually agree to 
fully fund the project?
    And number 4, and I bring this up every year, it still 
makes no sense to me why OMB uses a different discount rate 
than the Corps in evaluating projects. The Army Corps spends 
millions of dollars putting together Chief's Reports, and then 
OMB uses a different calculation, and that doesn't make any 
sense. And I am just wondering whether you are trying to 
correct that issue.
    Mr. Lamont. Congresswoman, let me jump in on number three 
and number four, they seem to be pretty related.
    Ms. Frankel. OK.
    Mr. Lamont. Number three, if I understand your question 
correctly, the--well, let me go to four first, because the 
competition for Federal funding, as I alluded to with 
Congressman Woodall, is a key driver here.
    With the available Federal resources we got, we need to, 
bottom line, we need to be able to look at the economics of 
what that project is delivering and how that will compete, 
after it is authorized for Federal funding.
    For authorization purposes, the benefit-cost ratio has to 
be 1.0 to 1 or greater at the authorized discount rate, and 
that is now right about 2.875 percent.
    However, because of the type of Federal funding that is 
available for the Civil Works program, the administration, no 
matter what administration, Democrat, Republican, going way 
back to 1992, utilized the benefit-cost ratio of 2.5 to 1 at a 
7-percent discount rate to qualify for budgeting.
    Ms. Frankel. Excuse me. I am aware of that. But it doesn't 
make--what I am saying is it doesn't make any sense because you 
are doing your feasibility study first, which now is going to 
take 3 years, we hope, and sometimes cost millions and millions 
of dollars.
    And you use a different study, a different discount rate. 
So you could do all that work and then OMB says, oh, sorry, we 
don't agree. So it doesn't make sense that you don't get your 
acts together, that you are not using the same formula. One of 
you needs to change it, right?
    Mr. Lamont. Well, I would say this, ma'am, in all due 
respect. With the Federal resources that are available to our 
agency, we must look at the most economic high-performing 
projects, if you will, and that is based on economics. The 
administration, this one and prior administrations, have 
determined that is the----
    Ms. Frankel. All right. I am sorry. You are not answering 
my question. I am sorry. I don't mean to be rude to you. How 
about trying the other three? Because really, you are not 
answering my question. You are telling me what I already know, 
but you are not explaining why, why you use different discount 
rates.
    Mr. Lamont. The discount rate is reflecting the competition 
for funds.
    Ms. Frankel. So but why--OK.
    General Semonite. And, ma'am, General Semonite. Let me hit 
the other three real quick, OK. And you have a lot of things 
you want to hear about. You want to talk about CEPP, Port 
Everglades. We are more than willing to come lay all this all 
out for you in your office.
    But real quick, short answer, we aren't aware of any 
problems right now with Florida funding. That is your first 
question. Sometimes when people want to offer money, though, 
there are different ways they offer it. They offer it with an 
expectation of getting repaid or they offer it as a contributed 
fund. Maybe that is where there is confusion. But we are not 
aware of any problem.
    The second one is on the 3-year study. It is our goal, and 
the committee, I think, has pushed us in the right direction, 
to try to get all of our studies done in 3 years. That has 
changed the culture of the Corps.
    Some of these are extremely complicated. Back to Savannah 
Harbor, that is about a 17-year study we did; way too long. 
Some of these might not get done in 3 years, and we have a 
waiver process. But it is our goal to try to be as aggressive 
as possible.
    And then the third one. There is not a requirement right 
now to have fully funded agreements for ports before we can 
move forward. They only have to be able to make sure that they 
can promise those funds in that agreement. But right now we are 
not aware of any--especially probably back on Port Everglades--
where there is a significant issue on any of those Florida 
ports.
    But we will lay this out in detail, if you want, on all of 
your ports, where we are on the Everglades, CEPP, and Port 
Everglades specifically, OK?
    Ms. Frankel. OK. Thank you very much. But I really hope you 
could take another look at this cost ratio question that I 
have.
    Mr. Lamont. Ma'am, I would be happy to meet with you or 
your staff to further explain this. I want to make sure that I 
am answering your question specifically. I understand fully 
your concern, that it looks like a dichotomy. I understand 
fully.
    Ms. Frankel. OK. And thank you again for your service, all 
of you.
    Mr. Graves of Louisiana. Thank you.
    The gentleman from Texas, Dr. Babin, is recognized for 5 
minutes.
    Dr. Babin. Thank you, Mr. Chairman.
    Mr. Lamont, I would like to talk about a proposed Cedar 
Bayou dredging project that is in my district. First, I want to 
give you just a few facts on Cedar Bayou.
    Cedar Bayou is a fully authorized project waiting for a 
construction new start since 2006, 11 years. The local sponsor 
has paid in full the local share of the initial cost of the 
project, and can execute a public partnership agreement with 
the Corps as soon as required. The project can be completed in 
less than 2 years.
    The project feeds into the Houston Ship Channel, the 
busiest port in foreign tonnage in the United States, a great 
benefit. It is one of the least expensive projects ready for 
construction at approximately $50 million.
    I would also point out that if you incorporate the impact 
this port has on our energy sector--and I submit that my 
district is the epicenter of energy production in this 
country--if you incorporate the impact of this port using the 
section 6009 calculation, the benefit-to-cost ratio is 
exceeding 5 to 1.
    Can you first tell me what else that you could possibly be 
looking for in a project when you are making a new start 
determination?
    Mr. Lamont. Mr. Congressman, this gets right back to 
Congresswoman Frankel's question relative to the benefit-cost 
ratio and how the Corps of Engineers formulates and justifies 
its projects. I agree with you that the section 6009 benefits 
are legitimate benefits that can be shown in Chief of 
Engineers' reports and feasibility reports.
    When it comes to--again, this is a thing that probably will 
annoy everybody here--but when it comes to competition for 
Federal resources for a construction decision, it all comes 
back to the benefit-cost ratio at the 7-percent discount rate 
being 2.5 to 1 or greater for qualification purposes.
    We have a project right now, Brownsville Harbor, Texas, 
where we have coordinated with the Office of Management and 
Budget, and we are continuing to look into the economics of 
that. And that gets right to your issue as to how to display 
the benefits to the Nation under the National Economic 
Development benefits, NED benefits, versus section 6009.
    I am committing to you that I will always work with the 
Office of Management and Budget in looking at all benefits that 
are on the table and trying to articulate what are the benefits 
not only to the Nation, but what are the benefits that are 
allowable under the law. So your point is well-taken.
    Dr. Babin. If Congress required the incorporation of the 
section 6009 benefits in the Corps' formula, which again, would 
make this particular project's cost-benefit ratio more than 5 
to 1, would this increase the likelihood of a project like this 
finally getting underway? And would it be that way for all 
projects?
    Mr. Lamont. If in further discussion with the 
administration I can--and I am committing to you that I will 
have this conversation with the administration, relative to 
section 6009 benefits. I am seeing it on a number of other 
ports. I think the time has come for me to get down and talk to 
them about this as to what are the total benefits to the Nation 
under the law, and the law specifies section 6009. So I have an 
obligation to talk to them about that and get back to you.
    Dr. Babin. OK. Thank you.
    And just real quickly with my remaining time, I want to ask 
a question on behalf of my Texas colleague to the south, Blake 
Farenthold, on the Port of Corpus Christi, which he represents.
    As you may know, because of uncertainty about Federal 
funding, the port is trying to get a public-private partnership 
agreed to so they can get to work with their own money, if 
necessary, on their Corpus Christi Ship Channel Improvement 
Project.
    It is my understanding that a draft of the PPA has been all 
but finalized since March of 2017. However, the transmittal of 
that PPA to the Corps Galveston District has not occurred, thus 
further delaying construction of this project. Can you explain 
to me why there has been such a delay in the finalization and 
transmittal of the PPA to the Galveston District? And if there 
are any outstanding issues, when do you expect them to be 
resolved?
    Mr. Lamont. Yes, sir. On the Corpus Christi project, I am 
working with the senior leadership of the Corps of Engineers to 
make sure that we can look at the draft project partnership 
agreement and discuss fully what are the implications relative 
to pipeline relocations and the costing thereof.
    Dr. Babin. OK. After receipt of these questions, would you 
provide me and Mr. Farenthold's office with a firm timeline 
when the Galveston District will receive this PPA?
    General Semonite. Congressman, the other thing is that we 
see a lot of potential in certain P3s. We do believe, though, 
there has got to be policy on this. And while we have a couple 
of these that have got a massive amount of growth or 
capability, it is important that there is some policy 
developed.
    And right now we have gotten, I think, a little bit of a 
hold on future P3s until we are able to shape that policy; 
mainly guidance we got through the administration and from some 
of the committees, to be able to make sure we can put some of 
that policy in place.
    So we are still working through that. We have done a pilot. 
But we do owe you some more work on what a P3 should look like.
    Dr. Babin. OK. Thank you very much.
    Mr. Graves of Louisiana. Thank you.
    I want to let Members know we are going to go ahead and do 
a second round for folks that are interested in doing that. But 
we are going to go to the gentlewoman from Michigan, Mrs. 
Lawrence.
    Mrs. Lawrence. Thank you so much.
    And thank the panel for being here.
    Mr. Lamont, as you know, the Corps and the EPA both 
highlighted the importance of the 2015 Clean Water Rule to our 
health, our communities, and our economies. For the record, I 
represent a section of Michigan. I am extremely sensitive to 
the issue of health when it comes to our drinking water.
    According to a fact sheet from the Corps and the EPA, about 
117 million Americans, or 1 in 3, in this country get drinking 
water from small streams that need protection from pollution 
under the 2015 Clean Water Rule that the Trump administration 
has proposed to repeal. In the June 2017 economic analysis of 
the Clean Water repeal, did the Corps and the EPA specifically 
look at the economic benefits of the rule in providing safe and 
reliable sources of drinking water for one in three Americans?
    Mr. Lamont. Yes, ma'am. Your comment there echoes a number 
of comments very similar across the Nation. Army Civil Works 
and the Corps of Engineers is working with EPA on this 
Presidential directive to relook at Waters of the United States 
Rule and the road forward.
    What we have done so far is we have had a number of 
consultation meetings with concerned stakeholders, 
representatives of Tribes, representatives of States, 
representatives of local municipalities. We are hearing your 
concerns loud and clear.
    The road forward is going to be a difficult one, in my 
perspective, as to not only documenting the economics and the 
environmental concerns. You have our assurance that we are 
going to do our due diligence to examine all of these aspects 
and listen to constituents and stakeholders as we move forward 
on this, on relooking at this rule.
    Mrs. Lawrence. I want to say to this panel while I have 
this mic that when it comes to safe drinking water in America 
it is not a partisan issue, it is not an administration issue. 
It is a matter of quality of life.
    We as human beings cannot exist without water. And we must 
ensure that we are funded and that we are protecting our water 
from pollution. And there is no, to me, gray area in that, and 
this is not about how you can shape it in a political agenda, 
and I am very passionate about that.
    Also while I have the mic, Soo locks, as you know, it is 
Michigan, I am sure that Lieutenant General Semonite. I 
understand that you recently visited the Soo locks complex, as 
I did in the Michigan delegation.
    What are you doing to ensure that the Corps is taking input 
from all stakeholders? And can you just give me an update on 
the reality of your draft of economic reevaluation report of 
the Soo lock project? Thank you.
    General Semonite. Yes, Congresswoman. And we need about 7 
more months to finish that draft. We would like to get it done 
by January. We do have a shortage of funds right now. We are 
working to reprogram to figure how to get more money so we can 
make sure we get that done by the 7 months.
    I was at the Soo locks, it is absolutely critical to the 
Nation. This is where there is one particular lock, called the 
Poe lock, where 100 percent of iron ore comes through. If that 
lock goes down for any period, there would be dramatic 
ramifications back to the economy and back to unemployment in 
that region. The homeland defense report is very, very clear as 
to how critical that is.
    So we are putting a lot of effort to be able to make sure 
that our report is done right. It might be where the committee 
and Congress would have to help, because if it is just a 
benefit-cost ratio decision, then it is just going to be like 
any other project. Soo lock can't be. Soo lock is in a 
different category----
    Mrs. Lawrence. It is.
    General Semonite [continuing]. Because it is a one-of-a-
kind lock for a one of a kind commodity.
    Mrs. Lawrence. And, please, I would like to get a report 
from you. And when you say we need more money, what does that 
mean? Where is it coming from? And where can we use our support 
for that? Because I am uniquely and passionately aware of what 
you have said and we must work together.
    General Semonite. Yes, ma'am. Mr. Lamont is working this. 
This is an internal issue with the workplan, regarding how we 
put the workplan together in the last couple hours, and when 
the submission occurred. So we have to go back in and find the 
right place where we have some funds that are actually not 
going to be obligated this year and we can redivert them. But 
we have got to go through the right process to make that 
happen.
    I want to get this done in like the next week or week and a 
half. Mr. Lamont is all over that.
    Mrs. Lawrence. Thank you. I yield back.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the gentleman from Illinois, Mr. 
Bost, for 5 minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    And thank you all for being here.
    First off, Mr. Lamont, I want to get one thing out of the 
way real quick, and then I have a longer discussion we need to 
have.
    Program funds that are being requested by the St. Louis 
Corps to do repair on East St. Louis levee projects, the 
district is making that request real soon. I am doing a 
followup letter to you, you will be receiving, and if you just 
could respond to that when you get it. I am just giving you a 
heads-up, it is coming your way.
    Mr. Lamont. Absolutely, sir. We will look right into it.
    Mr. Bost. Now, what I really want to deal with is, so back 
in December of 2015, we, in my district, and on both sides of 
the river, had the wonderful opportunity to have what was known 
as the holiday flood. It wasn't a holiday for any of your 
employees, and it sure wasn't a holiday for us. We were 
fighting floods in late December, early January.
    During that time, a levee called the Len Small levee, which 
was a non-Federal levee that was created by Governor Len Small 
years ago, became part of the system. We have done maintenance 
on it over the years. It has never burst on the high pressure 
side. At that time it did burst on the high pressure side.
    And if you will look at a map of Illinois--I have actually 
given this speech on the House floor, and I want you to in your 
mind remember how Illinois is shaped. It comes down and it does 
a curve, a very, very sharp curve, it is 17 miles around. That 
is called what is known as the Dogtooth Bend. It is a 17-mile 
area around on the Mississippi, very much used for navigation.
    When that Len Small levee blew, it started cutting across 
the 3 miles that is across. Now, the unfortunate issue is, is 
that is about a 12-foot drop in elevation. So over a 17-mile 
area it doesn't bother navigation. If it ever makes the cut 
through--if it ever makes the cut through--we are going to have 
a navigational problem and all traffic will be stopped from New 
Orleans to the Great Lakes.
    This is something I have tried to explain to the Corps, and 
I worked with the St. Louis Corps, getting the language right 
because the Corps has--now, understand you are spending 
millions of dollars right now in maintaining navigation, but 
unfortunately when it comes to a levee like that we won't 
repair it because you have to have a cost effect--it is 
calculated only on flood prevention. That is the only 
calculation you can use.
    We actually put in the WRDA bill language that we discussed 
with the St. Louis Corps on how it would actually allow them 
the opportunity to come back and do the repairs necessary to 
keep that from cutting through and stopping navigation all 
along the Mississippi River. This is a nationwide problem if 
this occurs.
    Somehow someone went in the Senate whenever we passed the 
bill over to the Senate from the Corps, and requested that the 
language be moved out. So we are still stuck in a situation 
where we are not able to do the repair.
    Today, that is not a problem. It is a little frustrating 
because the floods keep coming right back in, we have some 
riprap there blocking it. But I want to know what we can do 
with the Corps to get this problem cured before we have a 
Nation trying to figure out--I mean, remember, I came from the 
trucking industry, and the trucking industry will be very, very 
happy if all of a sudden it is blocked there. They can actually 
start unloading the barges at one spot, haul it up river, and 
do that. But I think we probably want the make sure the 
navigation continues.
    So what can I do with you to work to make sure we get this 
problem fixed?
    General Semonite. So, Congressman, there is not a good 
clean answer right now. We know we need about $16 million. We 
have looked at it very closely. Tony Mitchell, our colonel out 
there, has personally briefed you on this.
    Mr. Bost. Yeah. Does a great job.
    General Semonite. We were able to justify the bank repairs. 
That is the only thing the current rules allow us to do. We do 
want to work with you very closely to figure out if there is 
some other way.
    As we look at the rules right now, we don't feel that we 
are justified to be able to spend the $16 million on what is 
called Public Law 84-99 because it does need a benefit-cost 
ratio of 2.5.
    So I hate to say no, but right now the current rules we 
have don't allow us to do this. My guys met with you last week. 
We want to continue to figure out are there some options out 
there.
    Mr. Bost. But here is the problem. We had the language. We 
sent it to the Senate. I don't know who, but someone said, OK, 
we don't think this is a good idea, and you pulled it out. And 
I was not contacted when that took place. My staff was not 
contacted. We found it out after the fact, after we had already 
made a commitment to our locals that we did our job, which is 
putting the wording in correctly to try to cure this problem.
    You know what? The locals would love to see the levee back. 
That is no problem. And I understand their frustration of 
watching the family farms be destroyed by 7 feet of sand being 
piled up along 10,000 acres of farmland.
    But the real concern I do have is that navigation. And we 
need to do something quickly. I thought we had the problem 
cured. Don't know what happened in the Senate. There are a lot 
of things that happen in the Senate. I don't know what happens 
in the Senate. And in the short period of time I have been 
here, I became very frustrated with them, but we all are. But 
we have got to get this fixed.
    General Semonite. Sir, we are committed to working with you 
on this. We don't know what happened as well either.
    On the other hand, you have got a gap in there, so there 
are some areas that could very easily be flooded again. So 
let's continue to figure out what options are available.
    The Congress does a great job of laying out what our 
authorities are. We are committed to be able to work those 
authorities as best we can within those boundaries. But this 
one right now, we don't feel we have the flexibility to apply 
that money to that particular hole in that levee.
    Mr. Bost. OK, let me explain this. The riprap that was put 
in place is just above--slightly above flood stage. So the 
spring floods, I went down there again, and the river was 
coming over just as fast and just as hard and cutting more. So 
we are limited on the amount of time we have before it cuts all 
the way through.
    And I think it is something that needs to be brought to a 
level where--I brought it up to my leadership, Senate 
leadership needs to know it, and I think the administration 
needs to know and understand. When a problem is this big--it is 
one thing if I am fighting for my district, but I am fighting 
for keeping a major transportation thoroughfare open for the 
economy and for just everything that is in this Nation. When we 
start taking out the center of the Nation's ability to move 
products up and down that river, it is huge.
    General Semonite. And so we know you are prepared to 
propose legislation to do that. Our guys are willing to help 
draft that legislation and we will see what comes back out from 
that, and we will work within those authorities.
    Mr. Bost. OK. Thank you.
    Mr. Lamont. Congressman, can I add one thing?
    Mr. Graves of Louisiana. Please, briefly. We need to move 
on.
    Mr. Lamont. Colonel Tony Mitchell is now our executive 
officer in my office, thanks to General----
    Mr. Bost. He knows the situation well.
    Mr. Lamont. I will specifically talk with him about this 
issue also. Thank you, sir.
    Mr. Bost. Thank you.
    Thank you for giving it extra time.
    Mr. Graves of Louisiana. Thank you.
    We are going to go the best dressed member of the 
committee, the gentlewoman from Florida, Ms. Wilson.
    Ms. Wilson. Thank you. Thank you, Chairman Graves, for 
holding such an important hearing.
    And I want to thank our esteemed witnesses for sharing 
their perspectives on the implementation of WRRDA 2014 and WRDA 
2016.
    Chairman Shuster should also be commended for his 
commitment to developing and passing water resources 
development legislation every 2 years. Passing this legislation 
has truly been a bipartisan effort. As cochair and founder of 
the Florida Ports Caucus, I have worked shoulder to shoulder 
with my Republican colleagues to build bipartisan support for 
WRRDA 2014 and WRDA 2016.
    The impact on Florida alone has been tremendous. This 
legislation has helped Florida become a premier maritime 
location for freight and cruise, and has provided much needed 
resources to repair and restore the Everglades, which is a 
State and national treasure.
    WRDA legislation also has had a significant economic impact 
on Florida's 15 seaports, which, based on a recent 2016 study, 
provide nearly 900,000 jobs. Port Miami was one of the more 
recent harbor-deepening projects just completed by the Corps. 
That port is now able to receive post-Panamax vessels with 50-
foot drafts that travel to Miami through the Panama and Suez 
Canals. Two other seaports on Florida's east coast will soon 
join them.
    The 2017 Corps of Engineers budget includes funding for 
construction on a deepening project, Port Jacksonville, and 
engineering and planning for the Port Everglades deepening 
project. I look forward to working with each of you to ensure 
that these projects are funded in future years and stay on 
track.
    I have a couple of questions. The General Society of Civil 
Engineers estimates that our Nation's ports and harbors will 
need an additional investment of $15.8 billion between now and 
2020 to meet the demands of larger and heavier ships that will 
use the Panama Canal. This increased investment would protect 
$270 billion in U.S. exports, $697 billion in GDP, and 738,000 
jobs annually.
    Given this increase in demands that will be put on our 
waterborne infrastructure in the coming years, can you say with 
confidence that the Corps will be able to meet these needs in 
the current fiscal environment?
    General Semonite. Ma'am, we are committed to be able to 
continue to make sure that Congress understands the value of 
harbor deepenings, because it is a direct input back to our 
economy.
    We have done a lot of these. You mentioned a couple in 
Florida. We are continuing to work east coast ones. We are 
working ones in the gulf right now.
    I can't commit to what is going to happen anything past 
fiscal year 2018 based on the funds that are out there. But 
with the money that Congress gives us to do harbor deepenings, 
we are committed to be able to make sure that that money is 
able to directly go back into the economy and it goes back to 
jobs and taking care of the Nation.
    Ms. Wilson. OK. Section 2106 of WRRDA of 2014 authorizes a 
new program to provide funds to donor and energy transfer 
ports. Section 1110 of WRDA of 2016 amends 2106 and includes 
revisions to the provision that enables payments to shippers or 
importers. Can you advise when the department will provide the 
implementation guidelines on section 1110? And this is the 
specifically for Port Miami.
    General Semonite. We came prepared to talk all these 
because we are tracking them in great detail. Chairman Graves 
has been very aggressive on asking us to get implementation 
guidance done. If we can't find you an answer in about a 
minute, we will come and we will walk you through exactly where 
we are at on that particular section.
    Ed, do you have that section?
    So, ma'am, we will come over and lay this out for you on 
that particular one. We need to get this guidance done. Our 
guys are cranking as fast as they can to work through it, but 
we want to do it right so that we can make sure that we don't 
have problems down the road.
    Ms. Wilson. We will be looking forward to that guidance.
    Thank you. I yield back.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the gentleman from Texas, Mr. Weber, 
for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    General Semonite, you came to my office and I sure 
appreciated that. And I am glad to hear Representative 
Garamendi commending you for your preparation here, because I 
am going to put you to the test.
    You and I have both been made aware of inaccuracies in the 
Sabine-Neches Waterway BCR over in my area. You know that MARAD 
has ships there. I don't remember how many ships there are, but 
I think it is--is it one of three of the original anchorages 
left there, MARAD and Beaumont. Sixty percent of the Nation's 
jet fuel is produced there in our district. Almost 20 percent 
of the Nation's gasoline east of the Rockies, 6 percent of the 
Nation's strategic petroleum reserve in this district.
    In your discussion with Michigan Congresswoman Brenda 
Lawrence you talked about, was it the Soo locks and what would 
happen because of the iron ore deficiency to our Nation?
    Well, I would argue that Sabine-Neches Waterway is so very 
valuable and important. If we don't get it dredged out, we are 
going to tie up those naval ships and we are going to tie up a 
lot of traffic. We could ostensibly tie up the Nation's energy 
supply in a lot of different directions.
    We know that there are inaccuracies in the BCR. Will you 
check--I don't know if you have that information in front of 
you--but would you check on the status of this with the Deep 
Draft Navigation Planning Center of Expertise, with Colonel 
Owen and Colonel Zetterstrom of the Galveston District, put 
your finger on those inaccuracies?
    General Semonite. Sir, I am going to go to General Jackson 
in a minute, but we will definitely do that. The Deep Draft 
Navigation Center does exactly that. We want to make sure that 
those BCRs are calculated appropriately so we can stand behind 
those numbers.
    Ed, can you----
    Mr. Weber. Let me break in before General Jackson does 
that, if I can. So in your discussion with Brenda Lawrence of 
Michigan you talked about the deficiency of iron ore. Do you 
use a national security calculation on this, because if we lose 
our fuel capability, if we lose our ability to get naval ships 
out quickly--and here is a shock, there are enemies in the 
world that hate us.
    So how do you include that in your BCR? How can we be sure 
the Sabine-Neches Waterway is included in the President's 
fiscal year 2019 construction budget?
    General Semonite. So I will defer to Mr. Lamont. But I will 
tell you that the current analysis is based on certain types of 
calculations. My personal assessment is there are some 
variables that don't come into that. A good example is exactly 
what you are talking about, is defense and some of those kind 
of things.
    So, Mr. Lamont, I don't know if you want to talk in more 
detail.
    But there are some projects that might need the chairman 
and Congress to be able to look to see if they have some 
additional type of criteria that should be justified.
    Mr. Weber. OK. You wanted to go to Major General Jackson.
    General Semonite. I am going to go to Mr. Lamont.
    Mr. Weber. OK. You are going to go here first.
    OK, Mr. Lamont, you are up.
    Mr. Lamont. Sir, this will be pretty quick. For Sabine, 
there is $557,000 in the fiscal year 2017 workplan to initiate 
PED [preconstruction engineering and design].
    Getting back to General Semonite's point about employing 
the Deep Draft Harbor Navigation Center of Expertise, that is 
going to be critical to developing the economics that would 
allow this project to compete for new start construction.
    And, unfortunately, Congresswoman Frankel was not happy 
with my answer there before, but it is consistent that we have 
to see a benefit-cost ratio ultimately of 2.5 to 1, at a 7-
percent discount rate, to qualify for new start construction. 
However, there are other factors that need to be brought in.
    Mr. Weber. So who do we need to bring into it? When you say 
other factors, that actually was my next question. And we are 
glad that the fiscal year 2017 workplan for PED is in it, but 
we are still working with the Sabine-Neches Navigation 
District, OMB, and all to ensure that the CIP is eligible to 
compete for the President's budget in fiscal year 2019. Who 
else do we need to bring into this conversation with us?
    Mr. Lamont. It is incumbent upon us, sir, Army Civil Works 
and the Corps of Engineers, to work our due diligence relative 
to examining the full benefits to the Nation of not only that 
port, but all ports through our feasibility report process and 
making sure that we are accounting for all benefits across the 
table. That is the challenge that we have.
    Mr. Weber. Let me break in here. Mr. Bost described 
something on the Mississippi River that would be a problem and 
would block traffic. Mrs. Lawrence talked--you talked about the 
Soo--was it Sioux, S-i-o-u-x, locks?
    General Jackson. S-o-o.
    Mr. Weber. S-o-o.
    So obviously if there was a problem there, priorities would 
change. Who makes that decision? The locks close up and you 
can't get iron ore. General, by your own admission, that is a 
really big problem. Who makes that decision to change that 
priority?
    General Semonite. So where I was going, sir, is that 
basically some of those priorities have to be--I would 
recommend to be incorporated into that guidance. They are not 
currently in there. So those projects are based on an economic 
benefit-cost ratio, not necessarily a national defense 
criteria.
    Mr. Weber. So if that kind of a calamity occurred, somebody 
has the wherewithal to say, look, we have got to jump on that 
and fix that problem. Who is that person?
    Mr. Lamont. Sir, our principles and guidelines, which is 
the framework under which we do our planning and formulation of 
projects to seek authorization----
    Mr. Weber. I am not talking about planning. You don't plan 
for disaster.
    Mr. Lamont. No, no, no. I am going to try the answer your 
question directly. We have full latitude and there is broadness 
in there to look at all benefit categories, including national 
defense. So each individual project has its own unique aspects, 
and we should look not only on the economic----
    Mr. Weber. Mr. Chairman, if you will indulge me.
    I get that. But what I am saying is, when that lock locks 
up, pardon the pun, somebody says is the Corps is going to go 
in there and fix that. Who is that that says that?
    General Semonite. I think Chairman Graves has asked us to 
be able to give him some smart recommendations how to change 
some of those rules. Right now, there is not a clean answer to 
that solution if in fact the rules don't allow us to work in an 
area that is not justified.
    But I think that this is an area where we want to continue 
to work with the committees to build some of that in, so if 
there is a crisis, sir, we have the tools to be able to do 
that.
    Some areas we do have that, for very, very unique type 
disaster areas. But if there is something that is related back 
to a very specific requirement right now, I am not sure we have 
the flexibility we need to be able to go in and solve one of 
those problems.
    Mr. Weber. So the Nation just loses its iron ore 
capability?
    General Semonite. Sir, I don't want to go there. I am just 
saying, I think that there could be some more parameters we 
have to give the Corps more flexibility. And I am just not 
smart enough to answer exactly where we want to go----
    Mr. Weber. Mr. Lamont, you have been handed a note by the 
brain trust behind you. Is that salient to this discussion?
    Mr. Lamont. Yes, sir.
    Mr. Weber. She handed you a note. Does that describe who is 
responsible, would make that call?
    Mr. Lamont. Well, it is an effort between the Corps of 
Engineers and my office to make sure that we come not only to 
the administration, but to the Congress with our best possible 
recommendations.
    Mr. Weber. OK. Thank you for your indulgence, Mr. Chairman. 
I yield back.
    Mr. Lamont. Sir, I am willing to work with you on anything 
in that arena.
    Mr. Weber. And that is a good point. Please, let's make 
plans for you come to my office.
    Mr. Lamont. Yes, sir. Thank you.
    Mr. Weber. And I have a letter for both of you all before 
you all get away.
    Mr. Lamont. I understand your concerns, sir.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the other Texas delegation Member, 
the gentlewoman, Ms. Eddie Bernice Johnson.
    Ms. Johnson. Thank you, Mr. Chairman.
    And let me thank the witnesses for being here.
    I am from north Texas, with my district being in Dallas. We 
are inland, and yet we are probably the number one trade city 
in the Nation. Therefore, we have an inland port. But with all 
the growth we have, we have a lot of manmade lakes for drinking 
water--Joe Pool, Ray Hubbard, Ralph Hall--in the making. Then 
we have the Lewisville Lake in the area that will probably 
impact my district more than anybody else's if it floods, the 
Trinity River, and the Brazos. But we remain concerned about 
the supply of drinking water because we are very heavily 
populated.
    And, General, in an article that was published in March of 
this year, you were quoted as saying that: Another big question 
we are really trying to look at are the ramifications of the 
budget cuts on other agencies that we are trying to work with. 
If EPA gets cut 25 percent in their budget, and we need EPA to 
look at a permit, but we can't get it to the right people, that 
is going to slow our work down.
    Now, we have some projects that we are heavily depending on 
EPA to work with you now in that area. Can you elaborate on 
this point for the subcommittee, and state if you believe 
insufficient funding at EPA may inadvertently affect the pace 
of the completion of these Corps projects?
    General Semonite. Yes, ma'am. Good question.
    Again, back in March or April we weren't exactly sure what 
the other agencies were going to get with respect to their 
budget. There were some dramatic cuts. Some of those other 
agencies were proposed to have been cut up to 31 percent.
    We work very, very collaboratively with those interagency 
partners. So if there is an issue out there and Fish and 
Wildlife has to give an opinion, or EPA, we want to make sure 
that we are giving a Federal solution back to this, not just a 
Corps of Engineers recommendation.
    So there could be scenarios where if, in fact, an agency 
gets reduced in the amount of people they have, that a permit 
might take longer, a decision, a biological opinion. I think it 
is incumbent for us to be able to then figure out how do we 
prioritize those to keep the most important ones going.
    We aren't trying to say that we need to put more money back 
out there to be able to grow all these organizations, but there 
will be ramifications if the right amount of manning is not in 
some of these other organizations.
    Ms. Johnson. Thank you.
    Now, there are several ongoing Corps construction projects 
that were initiated under the new starts are provided ongoing 
construction funding in the fiscal year 2017 workplan. However, 
for the majority of these projects, additional construction 
funds are required in fiscal year 2018 and beyond to complete 
this construction. Yet, for a significant number of these 
projects, no construction funding was identified in the 
President's 2018 budget request.
    As you know, inefficient funding of construction projects 
can cause a delay in the realization of benefits of these 
projects where we are in many places depending on stopping of 
flooding or providing for drinking water. What is your plan to 
try to complete projects that obviously are necessary if they 
have already been identified?
    General Semonite. Ma'am, I am going to give you my personal 
opinion here. Once Congress makes a decision to start a 
project, I personally think we ought to see that project 
through.
    There are some projects where we don't see a continued 
amount of funding to be able to finish those that have been 
started. The best thing we can do is to continue to be able to 
justify those so when the committee makes decisions on money, 
whether it is in the administration's budget, or the committee 
provides funds in the workplan--then we are able to try to keep 
the momentum going on those.
    Because it goes back to the longer you take to build 
something, the more expensive it gets. That is just the law of 
human nature.
    Mr. Lamont, do you want to jump in?
    Mr. Lamont. Yes, ma'am. I want to also add that it is clear 
that as these things are drug out, they are going to get more 
expensive. Unfortunately, as a result of the tight competition 
for these funds, it makes things difficult when you are 
authorizing projects. They are added to the backlog and they 
can't get to construction.
    That is why I think you are seeing a lot of project 
sponsors willing to use some of the tools that this 
authorization committee has provided, which is to allow 
sponsors to start the work, fund the work themselves, and then 
hopefully have the Federal Government catch up.
    In fact, what we are seeing in a lot of cases, this is very 
obvious, we are having to go back and look at the economics to 
see if it can compete for new start funding or a continuation 
of funding.
    And that gets to be very difficult, because you get in kind 
of a back and forth here. You have already completed a Chief's 
Report, the project is authorized. Will it compete for new 
start construction? It may. It may be funded by a workplan. Can 
it be continued in the budget? It may not compete because of 
the benefit-cost ratio.
    There needs to be a concerted effort of looking at how this 
Nation is going to move forward relative to authorization of 
projects, construction, and the consequences of delaying these 
things and maybe the tools that are available to other 
entities, such as private-public partnerships to keep things 
rolling.
    This is a very valid question that we have heard not only 
at this committee, we have heard it through the Appropriations 
Committee staff also. Thank you ma'am.
    Ms. Johnson. Thank you very much. My time has expired, but 
let me express my appreciation for the work of the Corps, the 
responsibility that you have taken, the great responsibility 
ahead of you. Thank you.
    Mr. Graves of Louisiana. I wanted to check with you all. I 
know we talked about taking a brief break. I believe Mr. 
Webster has one more question left. I have got a number of 
questions. How are you all doing? Any urgent matters to attend 
to? Are you OK now? OK. All right.
    I am going to go ahead and do my questions, and then we 
will go to Mr. Webster and see if there are others.
    Sections 1144 and 1322 of the WIIN Act, in addition to 
section 1011 of WRRDA 2014, all give different prioritization 
criteria for budgeting projects. And I really want to highlight 
1144, section 1144 of the WIIN Act, of WRDA 2016.
    The legislation says that any project that is within a 
Presidentially declared disaster area, a project where there is 
a partnership agreement signed, and that the area is at 
significant risk for flooding, that it is to be prioritized in 
budgeting. Unfortunately, you have not done implementation 
guidance.
    We have the Comite Project, General, you and I have 
discussed this at length. In fact, General Jackson, I believe 
we have discussed this as well. This project was in the area 
where we had an extraordinary flood in August. We have had some 
homes that have flooded, as I recall, I think a total of three 
times since then.
    This project is not going to be the silver bullet, but it 
together with other proposals that have been put out there, 
including things considered by the Corps of Engineers such as 
the Darlington Reservoir and projects that could divert 
additional water off the Amite River, will provide substantial 
relief.
    I want to understand how these laws are being implemented 
to advise your budgeting decisions whenever there is not even 
implementation guidance. How are you factoring these sorts of 
provisions into your overall budgeting decisions? What do I 
tell these people at home?
    Mr. Lamont. Mr. Chairman, I would say in the case of the 
Comite River I understand exactly what your concerns are and 
your frustration. We have $6.7 million in the fiscal year 2017 
workplan.
    The concern there relative to loss of life really troubles 
me, as far as the ability to look at this hard for fiscal year 
2018 and possible workplan money. It gets back to the same 
issue, there is a common theme here. How do things----
    Mr. Graves of Louisiana. And reallocation of 2017 funds.
    Mr. Lamont. Yes, sir. Yes, sir.
    I am bringing home from this hearing a very loud concern 
from the committee about the possible disparity on how we 
authorize projects versus how they compete. I want to look into 
this further and have discussions with our senior leadership, 
also with the administration. But when it comes to tight 
funding what are the mechanisms to allow projects to either to 
complete, if they are started, or to compete for continued 
funding. And I understand your frustration there, sir.
    Mr. Graves of Louisiana. Another WRDA 2016 provision, 
section 1163, this dates back to either 2008 or 2009 where work 
related to the hurricane protection system in the greater New 
Orleans area was going to require mitigation. At one point the 
estimates were the mitigation was going to be in the $600 
million to $700 million range. As a result of, candidly, a 
different application of mitigation for the Corps as compared 
to the public, that number, I think, got whittled down to about 
$250 million.
    Regardless, myself, the Governor of Louisiana, and many 
others advocated that the Corps had $250 million in hand. That 
was the largest amount of money that you all have ever had to 
do wetlands restoration in Louisiana. And you are all familiar 
with the fact that we have lost 1,900 square miles of our 
coastal wetlands.
    Rather than taking those dollars and advancing any one of 
perhaps $20 billion in coastal restoration projects, many of 
which have been authorized by this committee, authorized by 
this Congress, the Corps instead decided to go out and do some 
smaller rifle shot projects that will not have the same 
cumulative environmental benefit than if some of these projects 
had been advanced.
    There was a very thorough process that the State went 
through to put their master plan together. In many cases the 
Corps of Engineers was working with them to identify priority 
projects. I will say it again, the Congress has identified 
projects that were authorized through the LCA.
    Section 1163 was designed to give the Corps some 
flexibility. Although I didn't agree with the Corps' reason 
initially for not spending the money on these larger 
restoration projects, the Corps identified what they believed 
were obstacles in the law. Section 1163 was designed to provide 
some flexibility or relief.
    Congressman Scalise, Senator Kennedy, Senator Cassidy from 
Louisiana have all weighed in with the Corps on this and asked 
specifically for the NOV project in Plaquemines Parish and the 
parish president from Plaquemines have asked that the Corps 
instead look at project investments, wetlands restoration 
investments that are truly complementary to resiliency in south 
Louisiana, ecological production in south Louisiana. And I 
understand that that discretion is not being exercised.
    I just want to ask you, certainly if you are familiar with 
it, I would love to hear your feedback. If not, I want to ask 
if you could please consult with Colonel Clancy, with General 
Wehr, and see if we can find more reasonable use of these 
dollars.
    Let me say it again. Between the NOV dollars and these 
other funds, $250 million. You can do real restoration. We 
tried to give you flexibility. You may be familiar, General, we 
have talked about the environmental bank provision that we 
included in the WRDA 2016 bill as well, designed to give you 
flexibility to make some of these investments where you can get 
greater environmental good, greater resiliency for the 
ecosystem and for the communities. And I see the Corps passing 
up these opportunities.
    Listening to the Members of this body, this committee, 
sitting here talking about lack of funding from the Corps, you 
reading between the lines. You are saying that you have funding 
challenges as well, I get it. And then you have opportunities 
like this to use funds and actually advance your mission and 
you are striking out.
    And so I want to urge you to go back and look at this. Here 
is an opportunity we are giving you to do what would be done in 
the private sector, to do what would be done if you want to 
have greater environmental good here. And again, I think the 
Corps is missing the opportunity. So I want to ask you to go 
back and look at that if you could.
    General Jackson. Mr. Chairman, I will take that up and I 
will get with General Wehr this week to figure out where the 
state of play is. I know we are working hard on the 
implementation guidance. But I want to make sure that I don't 
miss anything in the discussion. Then I would like to sit down 
with you and just make sure I get your perspective so we can 
move this forward and take advantage of the opportunities 
Congress intended. So thank you.
    Mr. Graves of Louisiana. Any time, any time. I am happy to 
meet and talk about this at length. Thank you.
    I am going to go to the gentleman from Florida, Mr. 
Webster.
    Mr. Webster. Thank you, Mr. Chairman.
    In the 2014 WRRDA bill there was a provision dealing with 
resilient construction, which I had a big interest in then, and 
it directed the use of durable and sustainable materials and 
resilient construction techniques to be used.
    Unfortunately, the previous administration decided that 
sustainability was going to be injected. And so in March of 
2016, they did some guidance documents, which in my opinion 
facilitated the use of two of the three pigs building materials 
and left out the one that actually withstood the windstorm that 
came. So hay is certainly renewable, but I don't know that it 
would be a part of sustainable--I mean of resilient 
construction. The same with sticks. But the brick, which is not 
renewable, would be left out.
    And my point is, is there any way that could be reversed or 
changed or is there anything you are thinking about that would 
bring about to ensure that we don't sacrifice resiliency for 
something else that is less desirable in that kind of 
construction?
    General Jackson. Sir, I will take this one. You and I spoke 
about this a year or so ago when we were working through the 
implementation guidance for this provision. So let me circle 
back with my staff and make sure I understand what the state of 
play is, what options we have to relook anything. Then I will 
get it with your staff and try to figure out how we can address 
the concerns that you just brought up.
    Mr. Webster. Great. Thank you very much.
    Mr. Graves of Louisiana. OK. Thank you. I am going to go to 
round two--or, I guess, round two for me.
    Another question I have is related to the Mid-Barataria 
sediment diversion project in Louisiana. You may be familiar, 
this project is very similar to a project that was authorized 
in the Water Resources Development Act of 2007, known as the 
Myrtle Grove project. It is designed to divert water from the 
west side of the Mississippi River into Barataria Bay.
    The State decided, after trying to work for a few years 
with the Corps, the State decided to move on this project on 
their own. But I want to be clear that there is a very similar 
project that has been authorized in law. The State has 
approximately $800 million to $1 billion in non-Federal funds 
available to them in the bank.
    We talked earlier about the section 408 process in response 
to Ms. Esty's questions. It is my understanding from the State 
that we are looking at a 5-year approval process, largely 
attributed to section 408 review and Marine Mammal Protection 
Act work by NOAA, which, I understand you are not NOAA and we 
are going to work on that NOAA issue separately, but 5 years.
    I want to be clear, this is an environmental restoration 
project, it doesn't provide benefits to navigation or anything 
else. In fact, I would maybe take that back and argue that this 
actually will, is designed and will divert sediment from the 
Mississippi River, thereby hopefully reducing your O&M budget 
Baton Rouge to the gulf. But it is designed to restore the 
environment, restore coastal wetlands, restore salinity, 
haloclines. This is designed to be an environmental project.
    The alternative of no action means additional wetlands 
lost, additional loss of ecological productivity, and we are 
looking at a 5-year review process. This is supposed to be 
FAST-41. FAST-41 is 5 years. This is on the dashboard.
    General Semonite. So, Chairman Graves, 5 years is 
unacceptable. You know, we got an application from the State 
in, in June of 2016. We are working. We published a notice of 
intent to prepare an EIS in April of 2017. Right now it looks 
like all the information that we are going need from the State 
to be able to continue to be able to work this, we should be 
done by December of 2019. That is still an awful long time, 
that is 3 years.
    Mr. Graves of Louisiana. Wait, say that last part again, 
December of 2019 is what?
    General Semonite. December of 2019 is when we think we will 
have that required information back in and to be able to 
complete this.
    Mr. Graves of Louisiana. Back in?
    General Semonite. Let me just make sure. The State----
    General Jackson. Sir, the State has committed to giving us 
the information that we need to inform their section 408 
recommendation by December 2019, that is the date that the New 
Orleans District has worked with the State of Louisiana.
    Mr. Graves of Louisiana. So they are waiting on information 
from the State?
    General Semonite. They are, yes, sir.
    Mr. Graves of Louisiana. Look, I just met with the State 
last week. This is a priority for all of us. I just want to 
reiterate that 5 years is just an unacceptable timeline you are 
having that kind of money in the bank.
    Like I said, I know the onus is on us to address the NOAA 
MMPA issue and we are going to do that. But I just want to ask 
you in regard to section 408, section 404, section 10, anything 
else that you are reviewing, that this be on the front burner.
    And we don't need to get into the debate right now, but I 
blame some of your predecessors for the land loss in Louisiana, 
and I am just asking you to be part of the solution.
    General Semonite. Chairman, we will take this on. Like any 
different process, we can crash those schedules. We will go 
back and work with the State, figure out what can we do to 
streamline to be able to get this thing done faster.
    Mr. Graves of Louisiana. Another fun one, deferred payback. 
You may remember in 2008 the State of Louisiana and the Corps 
of Engineers signed a 30-year deferred payback agreement under 
section, what was that, 103(k) of 1986, something like that. I 
don't remember which section it was. But it effectively allows 
the State to pay back the--or to pay the non-Federal share for 
the hurricane protection system work over a 30-year period.
    When that agreement was signed, the Corps of Engineers 
estimates were that the HPS was going to be completed--at one 
point it was 2009, another point it was 2010. I believe when we 
signed it, it was 2011. Right now I understand that deadline is 
actually 2019. And based on what I have seen, I think it could 
actually slip even a little bit more based on some of the 
settling and sinkage rates, subsidence rates of some of the 
levees that are being attempted to be handed over.
    So what happens under that agreement is that the interest 
accrues until the project is completed. So what at one point 
was, as I recall, about a $60 million annual payment, we are 
now looking at $90 million to $100 million a year.
    I am not going say that the State's activities, including 
mine when I was there, were flawless, but these delays are not 
attributable largely to the State's actions. Yet, they are the 
ones that are going to be penalized by these much higher costs 
annually, which is going to potentially, based on what I 
understand is the State's financial situation, that they may be 
paying this out of the coastal program.
    So this is directly taking money out of the wetlands 
restoration projects and hurricane protection projects. I will 
make note that that was not the plan initially, this was going 
to come out of the general fund.
    But regardless, do you think it is appropriate for the 
State to have to pay the additional costs as a result of the 
delays attributable to the Corps?
    General Jackson. Mr. Chairman, first of all, that is a huge 
issue, as I understand it. You and I have talked about this 
before.
    My understanding from the staff is that, according to the 
deferred payment agreements, the State of Louisiana can go 
ahead and pay at any time. They don't have to wait for the 
project to be 100 percent complete.
    So that is my understanding, but if my understanding is in 
error, then I want to make sure that I get that----
    Mr. Graves of Louisiana. I asked that question, and if I 
recall, and certainly don't let me be the expert on this, if I 
recall, the attorneys told me that actually they were supposed 
to wait. But I will go back and circle back and make sure I 
understood that correctly.
    General Jackson. Mr. Chairman, let's circle back together 
so that all of our attorneys see the same thing, and we will 
make sure that we move forward on this together to do what is 
right for the State.
    Mr. Graves of Louisiana. Thank you.
    IHNC lock project. As I recall, the IHNC lock and the 
Panama Canal were built sometime around the same time and they 
fully renovated the Panama Canal. IHNC lock is in dilapidated 
condition. And it really is amazing. This goes back to just the 
frustration, I think, with many members of this committee about 
the inability to finish projects.
    One thing that we are concerned about has to do with the 
traffic impacts of some of the bridge work. Specifically, 
language was included in the law that requires that the Corps 
of Engineers do a post-construction traffic study, that they 
are to coordinate with Saint Bernard Parish and the Old Arabi 
Neighborhood Association.
    And full disclosure, this is Congressman Scalise's 
district. I have been asked to ask these questions.
    From what I understand from talking with those 
organizations, they have not been consulted with and that the 
traffic study perhaps is being considered after the fact, as 
opposed to informing some of the decisions.
    I don't need a response because I am guessing it is a weedy 
issue, but I just want ask if you could go back and please 
review the law, review the obligations of the Corps of 
Engineers in this case. And, again, Saint Bernard Parish, Old 
Arabi Neighborhood Association, please do work with them to 
address concerns. And I think this should be done on the front 
end versus the back end to inform decisionmaking as opposed to 
trying to come back and mitigating after the fact.
    Congressman Lowenthal hit on the section 1122, which is the 
beneficial use of dredged material. General, once again, I view 
this as an opportunity for the Corps to expand the available 
resources of the Corps, beneficially using that dredged 
material to advance your ecological restoration projects.
    And in the case of Louisiana, it is a perfect example, I 
know there are many other examples around the Nation, we are 
double handling sediment. It doesn't make any sense from a 
cost-effectiveness perspective. I am concerned that the Corps 
of Engineers has a big fat wall between their CG program and 
their O&M program, between their ecological restoration and 
their navigation maintenance.
    And I think this is an opportunity for the Corps to see 
much greater benefit by coordinating activities, not double 
handling material, talking to States and non-Federal sponsors 
in some cases about paying the incremental cost of perhaps 
moving that material an extra half mile in some cases.
    But at the end of the day, it is going to significantly 
reduce backlog, it is going to advance some of the projects 
that we have for ecological restoration. And I urge you to 
please look at opportunities there.
    General Semonite. Chairman, I am in violent agreement with 
you. There is a lot we have got to continue to do with regional 
sediment management. We have seen some areas we have had great 
successes, New York Harbor is a good example.
    But I think throughout the Corps we have got to do a better 
job. Some of our ports are actually running out of areas to be 
able to put sediment. So the more that we can figure out how to 
be able to cut those costs down it is to everybody's advantage.
    Mr. Graves of Louisiana. I had a number of Members, 
including Mr. DeFazio, talked about Harbor Maintenance Trust 
Fund and concerns with dredging and certainly for navigation 
channels. Hearing the President talk about America First, 
talking about the need for us to advance our economy, increase 
our global competitiveness, and then watching these nav 
channels silt up and not be maintained at authorized depths is 
frustrating. It seems like it is contradictory.
    And I remember that the previous President established a 
goal of doubling exports for this Nation by, what was it, 2015, 
I believe, and that goal wasn't even close to being met. And I 
think part of it was the lack of complementary investment in 
infrastructure, such as ports and waterways.
    In the case of the Atchafalaya River, Bayous Chene, Boeuf, 
and Black project, again, another navigation channel affecting 
the Port of Morgan City, we have the Houma Navigation Canal in 
Terrebonne Parish is another one, all of these--Calcasieu 
River--all these ports come visit with us and talk about this 
lack of navigational certainty. Even the Mississippi River has 
had navigation restrictions.
    I signed a letter together with Congressman DeFazio asking 
the President to dedicate the Harbor Maintenance Trust Fund, to 
fully dedicate it and the remaining balance. I think that is 
what should be done. I think it is going to address this 
backlog. And I think, quite frankly, it is the honest thing to 
do in regard to budgeting.
    But section 1113 of the WIIN Act does allow non-Federal 
interests to carry out dredging activities in cases when the 
draft is not meeting authorized levels. It has been 8 months 
since that bill has been signed into law. There has been no 
implementation guidance the last I saw. Could you give me a 
timeline on when that is going to be done? 
    General Semonite. You said 1118? 1113?
    Mr. Graves of Louisiana. I tell you what----
    General Jackson. We will get back with you, sir.
    Mr. Graves of Louisiana [continuing]. I am going to go 
ahead and go to the gentleman from California, Mr. LaMalfa, 
while you are digging around.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Earlier this year, in northern California, we were all 
aware of the Oroville Dam and the challenges there with a lake 
that thankfully it was able to fill this year. I love to see 
full lakes. So with some issues with it, with the spillway, the 
main spillway breaking. And then a rapid rise of water that 
ended up utilizing for the first time in 50 years the emergency 
spillway system at the lake. And there was great concern since 
it hadn't been used before and erosion that happened on a mud 
hillside instead of a concrete apron area, that there was fear 
of collapse of part of that infrastructure, which would have 
had obviously big effects with at least a 30-foot head of water 
behind that.
    So with that uncontrolled flow and with that high amount of 
flow during that time and a lack of maintenance and some other 
issues with the levee system farther down the Feather River 
reaching through Butte County, Yuba, and Sutter County, several 
breaches of this levee system require emergency repairs. Indeed 
they were having to spend effort and money during February and 
March to go out there and shore it up just to get through the 
season. And the lost opportunity from the previous year of 
actually making the permanent repairs that would have been 
done, now we have good money going after bad of those repairs 
not having been done. So they shored that up.
    So my understanding now, the only thing standing in the way 
of these repairs is a signoff from the San Francisco Division 
of the Corps, and here we are on July 19 for a problem we knew 
about in February or March. We have known it actually for 
years.
    Can the gentlemen from Corps update me on something 
hopefully right now that shows that they are ready to sign off 
or the signoff has been done for that Yuba, Sutter area? Well, 
the Feather River system levee projects need to be done and 
certainly we should we be well aware of.
    Please, Major General Jackson.
    General Jackson. Yes, sir. I don't have the specifics to 
answer the question. I know that the answer is out there. Let 
me get with South Pacific Division and let me circle back with 
you and your staff and give you the answer that you are looking 
for.
    Mr. LaMalfa. OK. I appreciate it. Because, again, they 
stand at the ready to make this project happen. It is needed 
and people are dependent upon this for the safety of the area.
    So maybe Mr. Lamont here, on the Sutter Basin Project being 
carried out by the Sutter Butte Flood Control Agency, a local 
entity, during the discussion about the Corps workplan for 
2017, do you know how the Corps will further involve and 
increase the use of non-Federal resources to decrease the 
amount of time and money it would take to complete water 
projects like this? Because they stand ready to go and they can 
do things very fast, very efficiently, lower cost.
    Can you tell what the Corps' plan is to further involve a 
local agency like is a SBFCA.
    Mr. Lamont. Mr. Congressman, I understand there was a bit 
of a disparity between the Corps district and the sponsor on 
the project cost and the ability to move forward. And that got 
caught up in our timeframe on developing not only the fiscal 
year 2017 workplan, but also the fiscal year 2018 budget. And I 
am hopeful that that can be resolved as quickly as possible so 
we can look strongly at this one as a contender for fiscal year 
2018 workplan funding.
    Mr. LaMalfa. 2018. What about 2017? Again we need to 
signoff from the San Francisco Corps Division. Can we come back 
to that? Because we are burning daylight. It is July 19, and 
they need to be doing this, otherwise we are subjecting 
ourselves to another year of risk, another year of winter 
patch-up jobs to keep boils from happening at the edge of the 
levees. Can you elaborate?
    Mr. Lamont. PED, preconstruction engineering and design, 
was funded in fiscal year 2017 to continue the process to get 
it ready for new start construction consideration. So we are 
not losing any time on that aspect. The time that you are 
concerned about was, did it get a new start designation, which 
it did not this year, that is true.
    Mr. LaMalfa. General Jackson, why would that not be--why 
wouldn't we be it getting that new start?
    General Jackson. I don't know. Mr. Lamont, you are going 
have to answer that. I am not sure why we did not get a new 
start. But it has to compete with all the other projects that 
are out there to compete for new starts.
    Mr. Lamont. Right. My understanding in talking with folks 
from my office in concert with the Corps is that it just wasn't 
ready to go. I will look more clearly into this for you and get 
you a specific answer as to what the problem was and to try to 
resolve this and get this for consideration for the next cycle.
    Mr. LaMalfa. Not ready to go certainly wouldn't reflect any 
of the local effort----
    Mr. Lamont. Yes, sir.
    Mr. LaMalfa [continuing]. For local funding or local 
ability or input on that. It would merely be Federal Government 
dithering, what we are talking about here, and that is very, 
very frustrating. We have some people extremely motivated and 
concerned in the community. This is an area that had almost 
200,000 people evacuate due to the various factors here, 
whether it was the dam spillway itself or the levee system that 
is on the edge in some areas. And they are darn tired of it. 
And so we need answers on that. And I would appreciate them.
    And I will yield back because I am over time. Thank you, 
Mr. Chairman.
    Mr. Graves of Louisiana. Thank you.
    Look, in wrapping up, I want to say, one, I appreciate you 
being here. I appreciate your endurance today.
    I want to circle back to what I said at the beginning. The 
mission you have is absolutely critical to this Nation, whether 
it is facilitating maritime commerce from global trade, it is 
improving the resiliency of our communities, improving the 
resiliency of our ecosystem. These are critical missions to the 
Nation. They are fundamental.
    And the implementation schedules that we have seen are 
simply unacceptable. The West Shore Project in Louisiana was in 
a study phase for 42 years before the report being finished 
last year, which I do appreciate, but 42 years.
    You can never explain, justify those types of schedules to 
any taxpayer and we shouldn't ever have to. It is unacceptable.
    And moving forward, we have an opportunity, I think. I 
think there is a strong desire on both sides of this committee 
to change things, to give the tools we need to actually get 
these projects completed.
    I think there were a number of tools in the 2014 and 2016 
bill in many cases where the implementation guidance has not 
been finished. I am looking, there were sections where the 2014 
bill said that within 90 days of enactment certain things 
needed to happen, and we still don't even have implementation 
guidance from those. Other cases 180 days. We are over 3 years 
later.
    In the 2016 bill, again, 90 days, 180 days, 180 days, 180 
days, 180 days of enactment. The Secretary shall do X. And 
these things aren't happening.
    I will say what I said before, I don't understand how the 
Corps can go enforce laws and say to the American taxpayer, you 
have to comply with this law, yet the Corps itself is ignoring 
many laws that we write here on this committee.
    It is one thing that really bothers me personally, I know 
it bothers a lot of members of this committee that 
accountability is not happening. And it is something that we 
are going to work on to make sure that moving forward we don't 
have these continued lapses.
    It is in our shared interest. I know that Congress has 
culpability and responsibility to make sure that we are 
cleaning up laws, providing streamlined processes and 
appropriate resources to get things done. We need to work 
together to do these things. We are talking about an 
infrastructure package moving forward.
    The Corps' regulatory practices and others are all going to 
be integral to the success of this. The last thing in the world 
we need is to have $1 trillion sitting in the bank because we 
can't spend it because we are stuck on preconstruction 
activities.
    And so I want to work together with you all and many other 
stakeholders and this committee included----
    Mr. LaMalfa. Mr. Chairman?
    Mr. Graves of Louisiana [continuing]. On putting together a 
process that recognizes the urgency, is corresponding to the 
urgency of many of these projects around the Nation that we 
need to build.
    Mr. LaMalfa.
    Mr. LaMalfa. I am sorry. I would like to point out an irony 
here. You said a 42-year wait on a project. Tomorrow will be 
the 48th anniversary of landing on the moon. So we put a man on 
the moon 48 years ago tomorrow and we have 42-year lags in 
doing projects on Earth here.
    Mr. Graves of Louisiana. And that was 42 years just to 
finish the study on a project that we haven't even gotten the 
first penny of construction funds on yet.
    General Semonite. Well, Mr. Chairman, that is unacceptable. 
We all know that. I think we are all committed to continue to 
be able to figure out how to make recommendations to the 
process so we can streamline this and get back to these answers 
to the American public. They deserve that.
    Mr. Graves of Louisiana. Thank you. I appreciate it very 
much. As you know, I mentioned early on, I am sure we will have 
some questions for the record, and I would appreciate your 
prompt responses to those, in addition to following up on some 
of the other things where you committed to do so.
    If no other Members have anything else to add, the 
committee stands adjourned.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
 
                      [all]
                      
                      
                      
                      
                                    
</pre></body></html>
